<html>
<title> - OVERSIGHT OF THE UNITED STATES DEPARTMENT OF JUSTICE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                     OVERSIGHT OF THE UNITED STATES 
                         DEPARTMENT OF JUSTICE

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 17, 2015

                               __________

                           Serial No. 114-56

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


      Available via the World Wide Web: http://judiciary.house.gov
      
                               __________
                               
                               
                           U.S. GOVERNMENT PUBLISHING OFFICE
97-630 PDF                     WASHINGTON : 2016                           
                       
________________________________________________________________________________________                       
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a3c4d3cce3c0d6d0d7cbc6cfd38dc0ccce8d">[email&#160;protected]</a>  
                       
                       
                       
                       
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                            
                            C O N T E N T S

                              ----------                              

                           NOVEMBER 17, 2015

                                                                   Page

                           OPENING STATEMENTS

The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     4

                                WITNESS

The Honorable Loretta E. Lynch, Attorney General, United States 
  Department of Justice
  Oral Testimony.................................................     8
  Prepared Statement.............................................    11

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................     7

                                APPENDIX
               Material Submitted for the Hearing Record

Material submitted by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................    88
Questions for the Record submitted to the Honorable Loretta E. 
  Lynch, Attorney General, United States Department of Justi95<greek-l>
                       deg.OFFICIAL HEARING RECORD
          Unprinted Material Submitted for the Hearing Record

Material submitted by the Honorable Cedric Richmond, a Representative 
    in Congress from the State of Louisiana, and Member, Committee on 
    the Judiciary. This material is available at the Committee and can 
    be accessed at:

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=104114.

Material submitted by the Honorable David N. Cicilline, a 
    Representative in Congress from the State of Rhode Island, and 
    Member, Committee on the Judiciary. This material is available at 
    the Committee and can be accessed at:

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=104114.

 
          OVERSIGHT OF THE UNITED STATES DEPARTMENT OF JUSTICE

                              ----------                              


                       TUESDAY, NOVEMBER 17, 2015

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The Committee met, pursuant to call, at 10:30 a.m., in room 
2141, Rayburn House Office Building, the Honorable Bob 
Goodlatte (Chairman of the Committee) presiding.
    Present: Representatives Goodlatte, Sensenbrenner, Smith, 
Chabot, Issa, Forbes, King, Franks, Gohmert, Jordan, Poe, 
Chaffetz, Marino, Gowdy, Labrador, Collins, DeSantis, Walters, 
Buck, Ratcliffe, Trott, Bishop, Conyers, Nadler, Lofgren, 
Jackson Lee, Cohen, Johnson, Pierluisi, Chu, Deutch, Gutierrez, 
Bass, Richmond, DelBene, Jeffries, and Cicilline.
    Staff Present: (Majority) Shelley Husband, Chief of Staff & 
General Counsel; Branden Ritchie, Deputy Chief of Staff & Chief 
Counsel; Allison Halataei, Parliamentarian & General Counsel; 
Caroline Lynch, Chief Counsel, Subcommittee on Crime, 
Terrorism, Homeland Security, and Investigations; Chris Grieco, 
Counsel, Subcommittee on Crime, Terrorism, Homeland Security, 
and Investigations; Kelsey Williams, Clerk; (Minority) Perry 
Apelbaum, Staff Director & Chief Counsel; Danielle Brown, 
Parliamentarian & Chief Legislative Counsel; Aaron Hiller, 
Chief Oversight Counsel; Tiffany Joslyn, Deputy Chief Counsel, 
Crime, Terrorism, Homeland Security, and Investigations; Slade 
Bond, Counsel; Kurt May, Counsel; Eric Williams, Counsel; and 
Veronica Eligan, Professional Staff Member.
    Mr. Goodlatte. Good morning. The Judiciary Committee will 
come to order.
    And, without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    We welcome everyone to this morning's hearing on the 
oversight of the U.S. Department of Justice. And I'll begin by 
recognizing myself for an opening statement.
    Welcome, Attorney General Lynch, to your first appearance 
before the House Judiciary Committee since your confirmation 
earlier this year. And we are very pleased to have you here 
with us.
    Last week, we witnessed horrific terrorist attacks in Paris 
which claimed the lives of over 120 innocent civilians and for 
which ISIS has taken credit. Our thoughts and prayers remain 
with the French people, and we mourn with them.
    At the same time, these terrorist attacks are a stark 
reminder that ISIS poses a threat to our allies and America. 
Yet this reality is not clearly seen by our President. Just 
hours before the attack, President Obama boasted that ISIS is 
contained. ISIS is not contained in Syria, it is not contained 
in Europe, and we know ISIS is continuing its campaign of 
propaganda here in the U.S.
    We know from the Paris attacks that at least one of the 
perpetrators was registered as a refugee from Syria in 
countries through which he traveled on his way to France. Just 
last month, FBI Director Comey told this Committee that the 
U.S. refugee vetting process is not adequate to guarantee that 
Syrians referred for resettlement in the U.S. are not 
terrorists who plan to harm us. Yet the President presses on 
with his plan to resettle at least 10,000 Syrian refugees 
during this fiscal year alone.
    I look forward to hearing your thoughts on this issue, 
considering that the top counterterrorism investigator in the 
U.S. consistently states that the databases and law enforcement 
resources are not available to properly vet Syrians.
    Furthermore, reports indicate that, despite repeated 
congressional action to the contrary, this Administration 
thinks terrorists at Guantanamo Bay, who are cut from the same 
cloth as the Paris attackers and many of whom are deemed too 
dangerous for release to foreign countries, should be brought 
to the United States. Transferring these combatants to the 
United States will only increase their odds of being released 
inside the U.S.
    These public and national security concerns, coupled with 
unanswered questions about the cost and logistics of bringing 
detainees into the U.S., should cause the Administration to hit 
``pause'' on its reckless decision to close its Guantanamo 
detention facility. Enemy combatants should remain outside of 
the United States, where they can be detained away from our 
communities and without needlessly jeopardizing the safety and 
security of the American people.
    In addition to the mounting national security threats 
facing the Department of Justice, I would also like to focus on 
the need for an impartial Justice Department. Americans have 
become more and more suspicious that their government agencies 
are biased. To understand this, one need look no further than 
the well-founded allegations that the IRS targeted conservative 
groups for extra scrutiny.
    After numerous appeals to appoint a special counsel to 
investigate this, last month the Justice Department announced 
that no criminal prosecution would be brought against IRS 
personnel in connection with this matter. It is not difficult 
to understand why a special counsel was needed, given that only 
those organizations opposed to the President's overreaching 
agenda were targeting by high-ranking IRS officials. 
Apparently, officials at the IRS share Secretary Clinton's 
abhorrent notion that Republicans are ``the enemy.''
    I am profoundly disturbed the Administration's handling of 
this matter. At every turn, President Obama and Administration 
officials repeatedly and publicly undermined the investigation. 
When the House of Representatives took the responsible step of 
calling for the appointment of a special counsel to investigate 
the matter, our concerns and those of the individuals targeted 
by the IRS went unresolved by the Administration.
    Madam Attorney General, now that your department has 
concluded its investigation, I look forward to discussing the 
Department's decision with you in greater detail.
    Given the controversy surrounding the Administration's 
mishandling of the IRS targeting scandal, it is critical that 
the Justice Department clearly demonstrate to the American 
people that it will handle with impartiality its investigation 
surrounding former Secretary of State Hillary Clinton's use of 
a private e-mail server for official purposes.
    Earlier this year, two inspectors general reported that 
classified information was contained within the private e-mails 
of former Secretary of State Hillary Clinton and have referred 
the matter to the Justice Department. During his appearance 
before the Committee last month, FBI Director Comey vowed that 
this investigation will be conducted ``promptly, 
professionally, and independently.'' Rest assured, Congress and 
the American people will hold both the Bureau and the 
Department to this standard.
    The Committee also remains concerned that the Department is 
subverting Congress' budget authority by using settlements to 
funnel money to third-party interest groups. The concern is 
institutional and nonpartisan. Yet, rather than suspend the 
practice, DOJ has expanded it, while quietly obstructing the 
Committee's investigation.
    Last week, the Department finally produced a small subset 
of relevant documents that the Committee requested 11 months 
ago. I would like to know, Madam Attorney General, what you, as 
an experienced prosecutor, would do if a large corporation 
behaved this way in an investigation.
    As we sit with you today, Attorney General Lynch, law 
enforcement agencies across the country face profound 
challenges. Thirty-one police officers have been shot to death 
this year alone. In many places, officers are understandably 
asking whether it is worth pursuing violent criminals or 
otherwise putting themselves in harm's way, less they be the 
targets of intentional violence or community backlash.
    Force must be used appropriately, and police officers must 
take proper steps to protect innocent civilians. However, 
irresponsible anti-police activity from many in the advocacy 
community and the Justice Department's ongoing efforts to 
micromanage State and local police agencies have only served to 
exacerbate the divide between police and citizens. This trend 
cannot continue.
    Many American cities have seen a spike in violent crime. In 
Baltimore, homicides are up 71 percent. In August of this year, 
the number of murders here in Washington, D.C., already matched 
the number for all of 2014. Other cities have seen similar 
increases in violent crime. Despite these grim statistics, 
however, the Obama administration has continued to support 
initiatives that will only exacerbate this violence.
    On November 1 of this year, nearly 6,000 Federal drug 
offenders were released from prison, pursuant to a 2014 
Sentencing Commission amendment which the Justice Department 
supported. Over the next 2 years, some additional 10,000 
offenders will be released early. This ill-advised amendment 
applies without regard to an inmate's criminal history and will 
result in the release of some dangerous violent criminals as 
well as illegal criminal aliens.
    As you know, the Committee has introduced bipartisan 
legislation to institute meaningful sentencing reform while 
preventing release of serious violent criminals.
    Speaking of releasing violent criminals, the murder of Kate 
Steinle in San Francisco earlier this year is a tragic reminder 
that the lack of appropriate immigration enforcement in our 
Nation today and the reckless sanctuary policies in many cities 
across the country can have deadly consequences.
    It is not enough for Administration officials to pay lip 
service to the problems presented by sanctuary cities. Federal 
agencies, including the Justice Department, must take 
meaningful steps to ensure that criminal aliens released from 
Federal custody are promptly deported.
    Attorney General Lynch, I look forward to hearing your 
views on all these important topics today, as well as on other 
issues of significance to the Justice Department and to our 
Nation.
    Thank you.
    And now I'm pleased to recognize the Ranking Member of the 
Committee, the gentleman from Michigan, Mr. Conyers, for his 
opening statement.
    Mr. Conyers. Thank you, Chairman Goodlatte. Your opening 
statement could be the basis of a hearing all of its own. And I 
appreciate your views.
    Madam Attorney General, welcome to the House Judiciary 
Committee.
    Nearly 7 months ago, after much delay in the Senate, you 
took over the Department of Justice with not one but two tours 
of duty at the U.S. Attorney for the Eastern District of New 
York. You are unquestionably the right leader at the right time 
for the important work of the Department of Justice.
    Nowhere is your leadership more important than in national 
security. The attacks on Paris, France, leave no doubt that our 
most pressing mission, yours and ours, remains protecting the 
American people.
    And, unfortunately, history shows that tragic events like 
these are followed by calls for drastic action. Already we have 
heard proposals to undo encryption, to roll back surveillance 
reform, and deport some of the most vulnerable among us. I urge 
restraint in these matters, Madam Attorney General. At this 
time, we have very little information about how the attacks 
were carried out.
    Rather than use these events as an excuse to advance 
policies that otherwise betray our values, I urge the 
intelligence community, including the Department of Justice, to 
focus on the most effective tools in our toolbox: targeted 
surveillance, targeted investigation, and smart policing.
    Back at home, you have cultivated strong relationships in 
the police community, but you are not afraid to call out bad 
behavior or to prosecute police officers when circumstances 
warrant. That experience will prove invaluable as the 
Department, along with this Committee, takes its next steps on 
criminal justice reform.
    Under your leadership, the Civil Rights Division continues 
its work with police departments around the country to ensure 
that State and local policing practices comport with the 
Constitution.
    The Office of Juvenile Justice is also working hard to 
disrupt what you've called the cycle of criminality and 
incarceration. I commend you for your work on this front, and I 
look forward to our partnership as this Committee moves forward 
with its own package of criminal justice reforms.
    Another area where we look to you for leadership is 
enforcement of voting rights. Earlier this year, observing the 
50th anniversary of the Voting Rights Act, you remarked, ``It 
is the lesson of every generation that the price of freedom is 
constant vigilance. Because opponents of free and fair access 
to the voting booth have neither retreated nor surrendered.''
    The unfortunate truth of that statement plays out across 
the country today, no place more vividly than in the State of 
Alabama, where officials plan to close 31 driver's license 
offices across the State, including those in every county in 
which African-Americans make up more than 75 percent of 
registered voters. Coupled with Alabama's strict new voter ID 
law, these closings will make it even harder for many citizens 
to obtain the identification now required to cast a vote.
    The discriminatory impact of this plan plays out in other 
ways too. Imagine having to drive hundreds of miles across 
rural Alabama to renew your driver's license. We know that this 
burden will weigh heaviest on the State's poorest citizens.
    Borrowing again from your words, ``It is incumbent on all 
of us to stand up, to speak out, and to make clear that no end 
is worth the means of disenfranchisement, no small-minded 
policy is worth the cheapening of our democracy.''
    Finally, Madam Attorney General, I want to comment on the 
virtue of your being a new leader at the Department of Justice 
ready to make a fresh start with this Committee. Today, you 
will hear questions, no doubt, about Benghazi, Planned 
Parenthood, Solyndra, Operation Fast and Furious, and Lois 
Lerner at the IRS. These are not matters that affect a whole 
lot of our constituents, but you will hear questions about them 
and comments anyway. My advice to you--that you don't need--is 
stick to the facts and the law, and you'll be fine.
    We know that some Members are displeased with the outcome 
of the Department's investigation into the Lois Lerner matter, 
but we also know that your investigators were as thorough as 
can be. They conducted over 100 interviews, collected more than 
1 million pages of documents, and closely analyzed almost 500 
applications for tax-exempt status.
    Some Members may wish your predecessor had appointed a 
special counsel to investigate the matter, but both the plain 
text of the applicable regulations and the congressional 
research tell us otherwise. The facts of the case did not 
involve senior Administration officials. They did not present a 
conflict of interest to the Department of Justice. And so the 
appointment of a special counsel was simply not appropriate in 
this matter.
    Too often, your predecessor, who I still admire, found 
himself the target of personal insults in this Committee and 
elsewhere. And I like to think that all of us in this room and 
on this Committee regret the frequent attacks on his character 
or at least realize that those attacks were almost entirely 
unproductive.
    We have a chance to start over today. We can do better. 
Progressives and conservatives, Congress and the 
Administration, there is so much common ground between us to be 
explored, particularly in the work of the Department of 
Justice. And so I am so glad that you're here with us today, 
and I look forward to your testimony.
    Thank you, Mr. Chairman.
    Mr. Goodlatte. Thank you, Mr. Conyers.
    And, without objection, all other Members' opening 
statements will be made a part of the record.
    [The prepared statement of Ms. Jackson Lee follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Mr. Goodlatte. And we again welcome our distinguished 
witness.
    And if you would please rise, we'll begin by swearing you 
in.
    Do you swear that the testimony that you are about to give 
shall be the truth, the whole truth, and nothing but the truth, 
so help you God?
    Attorney General Lynch. I do.
    Mr. Goodlatte. Thank you very much. And please be seated.
    Let the record reflect that the witness has responded in 
the affirmative.
    I'll now begin by introducing our sole witness today, the 
Attorney General of the United States, Ms. Loretta Lynch.
    Attorney General Lynch was sworn in as the 83rd Attorney 
General of the United States on April 27, 2015. She began her 
career in public service by joining the United States 
Attorney's Office for the Eastern District of New York.
    After 9 years, Ms. Lynch was appointed by President Bill 
Clinton to lead that office as United States Attorney, a post 
she held until 2001. Ms. Lynch then worked in private practice 
until 2010, when President Obama asked her to resume leadership 
of the United States Attorney's Office in Brooklyn.
    Ms. Lynch is a graduate of Harvard College and Harvard Law 
School.
    Attorney General Lynch, we welcome your first appearance 
before the Judiciary Committee and look forward to your 
testimony. Your entire written statement will be made a part of 
the record, and we ask that you summarize your testimony in 5 
minutes.
    Thank you. And please begin at your convenience.

TESTIMONY OF THE HONORABLE LORETTA E. LYNCH, ATTORNEY GENERAL, 
              UNITED STATES DEPARTMENT OF JUSTICE

    Attorney General Lynch. Thank you, sir.
    Good morning, Chairman Goodlatte, Ranking Member Conyers, 
and distinguished Members of this Committee. I am very grateful 
for the opportunity to appear before you today to share some of 
the recent accomplishments of the U.S. Department of Justice, 
to discuss some of my top priorities as Attorney General, and 
to explore ways that we can continue to work together.
    I do want to begin, however, by commenting on Friday's 
reprehensible and heartbreaking attacks in Paris. The 
Department of Justice and, indeed, the entire Obama 
Administration stand in solidarity with France, just as France 
has so often stood with us. As President Obama said, this is 
not just an attack on Paris or the people of France; it is an 
attack on all of humanity and the universal values that we 
share.
    We are committed to doing everything within our power to 
assist our French law enforcement colleagues in bringing those 
responsible for this monstrous act of terror to justice. And, 
as we go forward, our thoughts and our prayers of course remain 
with the victims and their loved ones.
    Now, as this distinguished Committee well knows, our 
Nationfaces a host of serious, varied, and evolving challenges. 
Our highest priority must always be the security of our 
homeland, and we are acting aggressively to defuse threats as 
they emerge.
    We are working around the clock to uncover and disrupt 
plots that take aim at our people, our infrastructure, and our 
way of life. We continue to investigate and apprehend those who 
seek to harm us, including upwards of 70 individuals charged 
since 2013 for conduct related to foreign-fighter activity and 
homegrown violent extremism. And, of course, we remain focused 
on the threat posed by domestic extremists, as well.
    At the same time, we are placing particular emphasis on 
countering security threats in cyberspace. We are perpetually 
on guard against individuals, organized groups, terrorists, and 
state actors who might attempt to steal our data, endanger our 
economy, compromise our privacy, and threaten our security.
    In recognition of the need for strong public-private 
partnerships, we have created a new cybersecurity unit within 
our Criminal Division's Computer Crime and Intellectual 
Property Section and announced a National Security Division 
outreach initiative designed to promote information sharing and 
resilience as part of the division's National Asset Protection 
Program.
    I have also been meeting personally with corporate 
executives and general counsels around the country to spread 
our message of cyber awareness, to encourage strategic 
collaboration, and to find new ways to protect American 
consumers.
    Now, of course, to bring about the stronger Nation that we 
all seek, we must also empower the communities within our 
borders.
    Across this country, brave police officers risk their lives 
every day to protect our neighborhoods and serve the residents 
of their jurisdictions, and we are tremendously grateful for 
their dedication and their valor. But we have seen the 
devastating results of mistrust between law enforcement 
officers and the citizens we serve, and we've experienced the 
consequences when decades of tension erupt into unrest.
    During the first 100 days of my tenure, I conducted a six-
city community policing tour to engage with communities that 
have made significant progress in this area. In each city, I 
convened roundtable discussions that included law enforcement 
officers, public officials, civic leaders, and young people, 
where participants shared some of the most effective ways that 
citizens and law enforcement officers could join forces to 
foster trust, to build respect, and to spread mutual 
understanding.
    Restoring that essential trust between communities and law 
enforcement is one of my top priorities as Attorney General. 
And the Department intends to do everything we can to foster 
those bonds and to create safer and fairer communities across 
the country.
    Now, we are also paying special attention to vulnerable 
victims in our communities, particularly those caught in the 
clutches of human trafficking. In September, I announced that 
the Department would be extending $44 million in new grant 
funding to help support research, bring more traffickers to 
justice, and care for survivors.
    And, at this moment, I really want to thank our partners in 
Congress for their efforts. By tripling human-trafficking-
related funding for our Office of Justice programs in fiscal 
year 2015, Congress was instrumental in allowing us to increase 
our grant funding in this critical area. This October marks the 
15th anniversary of the Trafficking Victims Protection Act, 
which is certainly a fitting occasion to redouble our 
commitment to eradicating this pernicious practice.
    And, finally, I'd like to address our efforts on criminal 
justice reform at the Federal level.
    I commend the Committee Members who have come together to 
help chart a new course on criminal justice that will make our 
society both stronger and more secure. It is of course built, 
in part, on the success of the Smart on Crime initiative that 
my predecessor, Attorney General Eric Holder, launched in 2013, 
which shifted our approach away from harsh mandatory sentences 
for low-level drug offenses and enabled us to focus on more 
significant violent defendants, while better supporting 
rehabilitation and reentry programs that can reduce recidivism 
and promote public safety.
    But more must be done. Prison spending has increasingly 
displaced other critical public safety investments, and to make 
our sentencing laws more efficient, more effective, and more 
just, congressional action is needed. Reform has been embraced 
by prosecutors, law enforcement, and policymakers of all 
stripes, and the Justice Department is eager to see meaningful 
sentencing reform enacted during this Congress. And we thank 
you for the chance to work with you on that.
    Mr. Chairman, Ranking Member, thank you so much for the 
chance to speak with you today. And thank you all for your 
ongoing support of the Justice Department's efforts. I look 
forward to working closely with you to advance the objectives 
that we all share.
    And I'm pleased to answer questions from this body at this 
time. Thank you.
    [The prepared statement of Attorney General Lynch follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
                               __________
                               
    Mr. Goodlatte. Thank you, General Lynch.
    We will now proceed under the 5-minute rule with questions 
for the witnesses, and I'll begin by recognizing myself.
    Yesterday, a video reportedly linked to ISIS was posted 
stating that, ``As we struck France in the center of its abode 
in Paris, then we swear that we will strike America at its 
center in Washington.''
    Now, there is little doubt that ISIS views the United 
States and the West as a strategic enemy, and there is little 
doubt that our immigration laws, our lawful immigration laws, 
have been abused on a number of occasions by people intending 
to perpetrate harm against the United States.
    Do you agree with what your own FBI Director, James Comey, 
told this Committee regarding the inability to adequately vet 
and confirm the true identity because of the lack of 
information, databases, law enforcement resources, intelligence 
resources, and military resources available to us in Syria of 
Syrians who have applied for refugee resettlement in the United 
States?
    Attorney General Lynch. Thank you, Mr. Chairman.
    With respect to that important issue, as I've indicated, 
the most important priority of the Department of Justice is the 
protection of the American people. And, certainly, national 
security and terrorism are one of my own top priorities and 
certainly an area of concern for all of us. That is certainly 
our main concern.
    At the same time, we do have a system for allowing not just 
immigration but refugee entrance into the country. As the FBI 
Director has noted, there is a process in place that allows for 
significant vetting of refugees from all countries.
    Mr. Goodlatte. Well, let me interrupt, because he said 
something contrary with regard to the situation with Syrians. 
He said, ``We can query our database till the cows come home, 
but there will be nothing to show up because we have no record 
on that person.''
    Attorney General Lynch. Certainly, with respect to the 
databases that the Director was referring to, as he noted, I 
believe, before this Committee, there is a screening process 
that has data from several different agencies. The FBI 
participates, Department of Defense, Department of Homeland 
Security, National Counterterrorism Center. And much 
information is vetted and queried.
    Certainly, a lot of the information that is vetted does 
have to be inputted into the system.
    Mr. Goodlatte. In the case of Syria, you can't go to the 
government offices in that country. They're in disarray. You 
can't go interview people who know people who are applying for 
this status.
    Do you disagree with the FBI Director when he says that 
vetting Syrian refugees is extremely difficult, if not 
impossible?
    Attorney General Lynch. Well, Mr. Chairman, I'm not sure he 
said it was impossible. Certainly, not only the Department of 
Justice but all of our agencies will make every effort to vet 
every refugee coming into this country, from the databases, to 
the interviews that those individuals are subject to, to the 
biometric screening as well.
    Mr. Goodlatte. Let me go on.
    Attorney General Lynch. Certainly, there are challenges to 
that process because of the situation in Syria. But I would 
note, however, that we do have the benefit of having that 
significant and robust screening process in place--a process 
that Europe has not been able to set up, which renders them 
much more vulnerable.
    Mr. Goodlatte. Well, I think we'll be vulnerable, too, when 
it comes to people from Syria, when we can't get access to 
those databases because the country is in disarray, and we 
can't even gather information, fresh, new, because we can't 
access the people that we could talk to.
    Let me move on to another topic. The latest available data 
from the Justice Department shows that, during fiscal year 
2015, the government reported 6,002 new weapons convictions. 
This number is down 5.8 percent from the previous fiscal year, 
when the number of convictions totaled 6,373. Compared to 5 
years ago, when there were 7,101 weapons convictions, the 
number for fiscal year 2015 is down 15.5 percent. Convictions 
over the past year are lower than they were 10 years ago. 
Overall, the data show that convictions of this type, weapons 
violations, are down 34.8 percent from the level of 9,206 
reported in 2005.
    The President has repeatedly called for new gun control 
laws, yet your department has seen weapons prosecutions and 
convictions fall to levels not seen in over a decade.
    How do you explain such a precipitous drop in weapon 
prosecutions and convictions under this Administration? And why 
is such little emphasis placed on these types of prosecutions, 
when the President has called for yet more laws when the 
current laws are not being enforced?
    Attorney General Lynch. Mr. Chairman, thank you for the 
question.
    With regard to the Department of Justice enforcement of the 
gun laws, we take those gun laws very seriously and are 
committed to using the full panoply of laws and regulations on 
the books.
    We typically use those laws at the Federal level in 
conjunction with our many and numerous violent crime 
initiatives. For example, in my former position as U.S. 
attorney in the Eastern District of New York, many of our gang 
cases also carried with them firearms charges. They would not 
necessarily be the lead charge, they may not be reflected in 
the data that you have, but they certainly are an important 
tool in every prosecutor's arsenal in combating violent crime.
    In the discussions----
    Mr. Goodlatte. Then why aren't they being prosecuted for 
those violations?
    Attorney General Lynch. I'm sorry, sir?
    Mr. Goodlatte. Then why aren't they being prosecuted for 
those violations related to firearms?
    And, by the way, this doesn't just mean using a firearm in 
the commission of crime. It also means illegal sales of 
firearms. It means lying on the Instant Check System of which, 
for the last year for which we have complete data, 76,000 
people were found to have committed the felony of swearing to 
false information on that form. Five thousand were referred for 
prosecution, but the 94 U.S. attorneys' offices across the 
country could only find time to prosecute 62 out of 76,000.
    So somebody going into a gun store to buy a weapon knows 
that, even if they're caught--and often they're not caught 
because the system doesn't have all the information it needs in 
it--but even if they're caught, they often find that the odds 
are one in a thousand that they'll be prosecuted even when 
they're caught.
    What are you doing about that? What should be done about 
it? And why has this decline been so precipitous over the last 
several years?
    Attorney General Lynch. Well, Congressman, with respect to 
the types of cases that are prosecuted, as I indicated, a lot 
of the firearms prosecutions are done in conjunction with our 
violent crime program, and they may not show up in your 
statistics as the lead charges. They are a significant part of 
the arsenal that every Federal prosecutor utilizes.
    Most recently, I've convened a summit with the top elected 
officials, police chiefs, and leaders of major cities to talk 
about violent crime that's currently taking place in several 
major cities, with a focus on finding the causes and finding 
the best ways to direct Federal resources to those particular 
cities.
    Mr. Goodlatte. Can we expect these prosecutions to go up as 
a result of that?
    Attorney General Lynch. Congressman, what we do is we look 
at the root causes of violence in a particular area. If, for 
example, the firearms were the main issue there, we would focus 
our efforts there. We follow the facts and the evidence.
    Mr. Goodlatte. Not necessarily prosecute for the gun 
violation.
    So, if that's the case, would you agree with me, then, that 
it doesn't make sense to add new gun laws, when we already have 
hundreds of them that are not being enforced today and you 
don't seem to anticipate an increase in the use of those 
current laws to prosecute people who misuse firearms?
    Attorney General Lynch. I think, at this point, it would be 
difficult to speculate as to what numbers would look in a year 
with respect to any particular criminal program.
    What I would say is the Department of Justice is committed 
to using the full panoply of laws that are currently on the 
books as part of our violent crime initiative, as part of our 
desire to keep all communities safe. And that does include our 
firearms laws.
    Mr. Goodlatte. I want to cover one more topic that concerns 
me greatly.
    During the FBI's investigation of the IRS matter, the 
President stated on Super Bowl Sunday that there was not ``even 
a smidgeon of corruption at the IRS.'' At the end of that 
investigation, no charges were filed.
    Two weeks ago, the President stated with respect to 
Secretary Clinton's e-mails, ``This is not a situation in which 
America's national security was endangered.''
    Should we expect that when the FBI finishes its 
investigation of this matter that no charges will be filed? 
Does the Department allow statements by the President to 
dictate its investigative practices?
    Attorney General Lynch. Mr. Chairman, the Department 
reviews facts and evidence submitted before it. We apply the 
law to those facts and evidence. We take all the appropriate 
steps in every matter that we review. And that is how we will 
essentially manage every matter under our purview, whether it 
relates to the IRS, to an e-mail matter, or every matter that 
comes before us.
    And with respect to the President's comments, they have no 
influence or bearing on how the Department manages these 
matters. And I would have to refer you to him for a review of 
those.
    Mr. Goodlatte. I'm glad to hear you say that. In your view, 
wasn't it inappropriate for the President to once again inject 
his personal views into an ongoing FBI investigation?
    Attorney General Lynch. Mr. Chairman, I really don't have a 
comment on the President's expression of his views.
    Mr. Goodlatte. He's the chief executive officer of the 
United States, and everything that operates within the 
executive branch is under his purview, including the very 
important independent nature of the FBI in conducting its 
investigations.
    Wouldn't it be better if the President of the United States 
did not comment on the merits of those investigations while 
they're going on?
    Attorney General Lynch. Mr. Chairman, I really don't have a 
comment on the President's statements.
    Mr. Goodlatte. Thank you very much.
    The Chair recognizes the Ranking Member, the gentleman from 
Michigan, for his questions.
    Mr. Conyers. Thank you very much, Chairman Goodlatte.
    Attorney General Lynch, I want to thank you again for 
speaking at my panel at this year's Congressional Black Caucus 
Legislative Forum. It was marvelous.
    At that event, you spoke about the breakdown in trust 
between law enforcement and the communities they serve. You 
also spoke about getting to the root of the problem with a 
comprehensive approach to training, to policy, and to research.
    Many of the law enforcement officers in attendance agreed 
with your comments. How are you planning on reaching out to the 
broader law enforcement community to promote these ideas?
    Attorney General Lynch. Thank you, Congressman Conyers.
    This is, in fact, one of my top priorities as Attorney 
General. And I'm incredibly proud to say that the Department of 
Justice has already begun the type of outreach that I was 
discussing at that particular event.
    Through our COPS Office, in particular, the Community-
Oriented Policing Service Office, we reach out directly to 
police departments across the country and offer technical 
assistance, we offer training, we offer peer-to-peer support.
    We have found that an incredibly effective way to share 
information within the law enforcement community is peer-to-
peer, police-officer-to-police-officer, chief-to-chief. And so 
we work with the departments that have, in fact, made great 
strides in the area of police-community relations and seek to 
match them up with other departments who are having challenges 
in this area and who would be receptive to their input.
    I also, as I noted in my opening statement, have been on a 
six-city community policing tour. And as I talk with residents, 
with young people, elected leaders, I also talk with police 
officers. I do meet with chiefs and supervisors, but I also 
talk to the rank-and-file, the officers who are on the beats of 
our cities, to get their ideas as to what has worked in their 
city, as to why a positive relationship has developed in the 
cities where they have had challenges and where they have had 
struggles.
    I have listened to their stories of commitment and 
dedication and to their embrace of community policing and 
concern for residents as a program and policy that makes 
policing more efficient and that makes communities safer. And 
I'm incredibly proud to support those efforts.
    Mr. Conyers. Thank you.
    In recent weeks, there have been some suggestions, some 
from within your department, that our dialogue on these issues 
have somehow reduced the willingness of some police officers to 
perform their duties.
    I know of no real evidence to substantiate this claim, but, 
in your opinion, does that conversation about civil rights and 
the appropriate use of force by police somehow make us less 
safe?
    Attorney General Lynch. Mr. Congressman, our discussion 
about civil rights and the appropriate use of force and all 
police tactics can only serve to make all of us, the community 
members and police officers, safer.
    In my discussions with police officers around the country, 
I have found a positive engagement on these issues. I have 
found them to have some of the best thoughts and best practices 
to share with other departments on these issues--issues like 
the best practices for deescalation of certain situations, 
issues like the best practices for maintaining a relationship 
with community organizations and citizens councils, issues on 
police safety. They've provided us valuable input in our 
program, such as providing bulletproof vests, body-worn 
cameras. They are focusing on the best ways to use these new 
technologies.
    So, while certainly there may be anecdotal evidence there, 
as all have noted, there's no data to support it. And what I 
have seen in my travels across this country is the dedication, 
the commitment, and the resolve of our brave men and women in 
law enforcement to improving policing, to embracing the 21st-
Century Task Force recommendations, and to continuing to have a 
dialogue that makes our country safer for all.
    Mr. Conyers. Thank you.
    The State of Alabama's plan to close 31 driver's license 
offices demonstrates how one policy decision can have wide-
ranging discriminatory effects. The media's picked up on this. 
And this will make it harder for citizens of these rural 
counties to vote.
    And I'm just as concerned about the discriminatory economic 
effects of this decision, which will fall hardest on rural, 
poor, and African-American communities. I imagine a Black 
farmer driving hundreds of miles across rural Alabama to renew 
an expired driver's license. And, on this Committee, we know 
what might happen to such a young man.
    What tools does the Department have to combat 
discrimination in all of the ways it manifests itself? And how 
are you going to be using these tools in this case?
    Attorney General Lynch. Thank you, Congressman.
    With respect to the Department's enforcement of our various 
civil rights statutes, it is certainly robust and will continue 
to be so. While we no longer have the advantage of the 
preclearance provisions that were in the Voting Rights Act, we 
still have significant provisions of the Voting Rights Act that 
allow us to review actions and decisions taken, albeit after 
the fact, to determine whether there has been either a 
discriminatory intent or, as is very often the case, a 
discriminatory result.
    We can engage in negotiation and conversations. Many times, 
we do that before we even move to litigation in an attempt to 
reason with or have a discussion with entities that are making 
significant changes. And often those discussions are very 
productive. I was pleased to see that, after discussions with 
Members of Congress, the State of Alabama may be making some 
modifications to those changes. And, certainly, those types of 
discussions are an efficient way to bring about change and 
raise these important issues.
    But I will reiterate, Congressman, that the Department of 
Justice is committed to enforcing the civil rights laws that we 
do have on the books. And we are committed to a vigorous review 
of matters that are brought to our attention and will ensure 
full and fair and efficient review of those matters and take 
the action that is appropriate.
    Mr. Conyers. Thank you so much.
    Last question. More than 30,000 people die from gun 
violence in this country every year. What can this Committee, 
the Committee on the Judiciary, right now do that would save at 
least some of those lives?
    Attorney General Lynch. Well, Mr. Congressman, I think 
there is a significant debate and discussion going on as to how 
to best save lives in that situation. And I think that all 
voices are necessary in that debate and discussion.
    And, certainly, if Congress were to consider new laws, I'm 
sure this Committee would be deeply involved in discussions. 
And that is, of course, up to Congress as part of your purview, 
and the Department would be happy to work with you with regard 
to that.
    I think that we also have to look at the root causes of the 
violence. As I indicated in a response to an earlier question, 
just last month I convened a summit on violence of several of 
the leaders of our major cities--police chiefs and mayors, as 
well as police executives. And what the Department is doing is 
looking for ways to identify the root causes of so much of the 
violence that we are seeing.
    Even as violence is at historic lows nationwide, we still 
have some communities that struggle with this issue. In some 
instances, it is gun violence. In some instances, we see an 
increase in drug use--methamphetamines, heroin, opioids. And so 
we are trying to find our best ways to focus our resources 
there.
    Just yesterday, I met with representatives from the 
National Conference of Mayors and had discussions on these very 
issues, about the differences that all communities present and 
the need to have a full and robust discussion about these 
issues.
    Mr. Conyers. Thank you so much for your testimony and your 
views.
    Attorney General Lynch. Thank you, sir.
    Mr. Goodlatte. Thank you, Mr. Conyers.
    The Chair now recognizes the gentleman from Wisconsin, Mr. 
Sensenbrenner, for 5 minutes.
    Mr. Sensenbrenner. Thank you very much.
    Madam Attorney General, welcome. We hope to be seeing you 
for a bit, at least for the next 14 months.
    I have a question relative to the issue of the Guantanamo 
detainees. Congress recently passed and the President is 
expected to sign into law legislation that explicitly prohibits 
the use of Federal funds to move detainees from Guantanamo Bay 
to the United States.
    Former White House Counsel Gregory Craig recently wrote an 
op-ed arguing that the law is unconstitutional and that 
President Obama can legally ignore it. Since you are America's 
top lawyer, do you believe that President Obama could legally 
ignore legislation prohibiting the transfer of detainees to 
American soil?
    Attorney General Lynch. Thank you, Mr. Congressman.
    What I would say on this issue certainly is, as the 
Administration has stated, the closure of Guantanamo Bay is 
something that is part of the Administration's policy, and the 
Department of Justice supports that, as well.
    At this point in time, I believe the current state of the 
law is that individuals are not transferred from Guantanamo to 
U.S. shores. That position is reiterated by the legislation 
that you mention. And my understanding, as you indicated, is 
that I do believe the President has indicated that he would 
sign that.
    And, certainly, it's the position of the Department of 
Justice that we would follow the law of the land in regard to 
that issue.
    Mr. Sensenbrenner. Well, the question I had is, do you 
believe that the law is unconstitutional, as Mr. Craig has 
opined in last week's Washington Post? And would you ignore the 
law based upon that argument?
    Attorney General Lynch. Well, Mr. Congressman, I'm actually 
not familiar enough with Mr. Craig's analysis to comment on 
that. So I'm not able to comment on his views about the 
statute.
    Certainly, with respect to the existing state of the law, 
the Department of Justice is committed to fully following that. 
And the closure of Guantanamo Bay is being carried out in 
compliance with that law.
    And so I believe that it is the view of the Department that 
we would certainly observe the laws as passed by Congress and 
signed by the President. Only very rarely would we take the 
step of finding that an unconstitutional provision was 
something that we could not manage. We would, of course, seek 
to work with Congress and the Administration to resolve that 
issue.
    Mr. Sensenbrenner. Now, does this mean that you think it's 
okay for the President to transfer these people, who are some 
of the world's most dangerous terrorists, to countries other 
than the United States but it would not be okay for him to 
transfer them to the United States?
    Attorney General Lynch. Well, Mr. Congressman, the current 
state of the law allows for the transfer of certain detainees 
from Guantanamo Bay, those that after a vigorous review process 
are placed in that transfer category, to countries that, after 
significant vetting and promises of management, can accept 
them.
    With respect to individuals being transferred to the United 
States, the law currently does not allow for that. And that is 
not, as I am aware of, going to be contemplated, given the 
legal proscriptions.
    Mr. Sensenbrenner. Okay.
    Let me ask one question on an unrelated matter. As you may 
know, the House, last month, passed a bill called the Judicial 
Redress Act, which, in my opinion, is essential to enforcing an 
umbrella agreement to transfer law enforcement information from 
certain European countries to the United States and vice versa.
    If the Senate fails to pass this bill, in your opinion, 
what will be the effect on the sharing of law enforcement data 
with certain of our European allies?
    Attorney General Lynch. Thank you, Congressman.
    We fully support the Judicial Redress Act. And I actually 
would like to thank you and the other Members of this Committee 
for the important work that you've done on this issue.
    As you have noted, this legislation is critical to 
continued law enforcement sharing of information from the U.S. 
and the European Union. In fact, I have been involved in 
discussions with ministers from the European Union on the Data 
Protection Act, often called the Umbrella Act, as well as the 
Judicial Redress Act.
    It certainly is our view that this important legislation 
should be passed. It would provide, as you know, redress for 
European Union citizens should there be an unauthorized or 
misuse of their data here in the U.S., which is a privilege 
enjoyed by U.S. citizens within the European Union.
    Without this, we do have a grave risk of not having the 
completion of the data protection or umbrella agreement. And I 
think, sadly, recent events have shown us the importance, the 
critical nature, of making sure that we have these safe and 
secure portals for transferring information from one law 
enforcement entity to another.
    Mr. Sensenbrenner. Let me make one point, as my time is 
expiring. While the Judicial Redress Act does not deal with the 
sharing of counterterrorism information, there frequently is an 
interface between those who want to commit terrorist activity 
and those who do commit petty crimes which would end up being 
in the law enforcement file.
    And I would just look at today's New York Times, where 
comments relative to the attack in Paris and what apparently 
happened in a neighborhood in Brussels, where it says, ``In a 
neighborhood known for extremists, a trail of petty crimes and 
missed plots.'' The Judicial Redress Act might be able to put 
the pieces of the puzzle together from petty crimes so that 
there can been missed plots.
    Thank you for your support.
    Attorney General Lynch. Thank you, Mr. Congressman.
    Mr. Goodlatte. Thank you.
    The Chair recognizes the gentleman from New York, Mr. 
Nadler, for 5 minutes.
    Mr. Nadler. I thank the Chairman.
    And I thank the Attorney General.
    Madam Attorney General, in the immediate aftermath of the 
terrorist attacks on September 11, 2001, the Department of 
Justice established and oversaw a victims' compensation fund 
that provided more than $7 billion to families who lost loved 
ones on that day.
    In the years after the attacks, it became clear that 
thousands of first responders and survivors continued to suffer 
major health consequences from the attacks and their aftermath. 
Thousands of lawsuits were filed against contractors and others 
by these victims.
    In 2010, Congress enacted the James Zadroga Act, which 
provided essential healthcare services to those in need and 
reopened the Victim Compensation Fund to those families whose 
losses became apparent after September 11, providing them an 
alternative to litigation. In the last 5 years, the Victim 
Compensation Fund has provided nearly 6,300 first responders 
and survivors with $1.4 billion in compensation determinations. 
Since we enacted the bill, I am aware of no further 9/11-
related lawsuits.
    Despite its current success, on September 30, 2015, 
Congress allowed the VCF and the World Trade Center Health 
Program to expire. Fortunately, there is legislation pending in 
the House to permanently reauthorize the Victim Compensation 
Fund and the World Trade Center Health Program. The bill now 
has the cosponsorship of 247 cosponsors, a majority of the 
House, including more than 50 Republicans, and a filibuster-
proof majority in the Senate, with 65 cosponsors.
    If Congress fails to act, thousands of first responders and 
survivors will lose access to compensation on which they depend 
to support their families when they are tragically gone. The 
VCF is preparing to shutter its operations once it has 
processed existing claims. If the VCF is not fully funded and 
reauthorized, the first responders and survivors who have 
already received the notice of their compensation could 
actually see that amount cut by up to 50 percent.
    We are literally talking about taking money out of the 
hands of a sick police officer. I am deeply saddened to think 
that is how Congress plans to remember the heroes of 9/11.
    Attorney General Lynch, do you agree that this is not the 
proper way to honor the heroes of 9/11? Don't you think that 9/
11 survivors and the firefighters and police officers who 
risked their own lives to save them and have suffered health 
consequences because of it deserve the full support of the 
American people and a fully funded Victim Compensation Fund?
    Attorney General Lynch. Thank you, Mr. Congressman.
    This is, indeed, an important issue. Of course, we will 
always be deeply indebted to those first responders and brave 
men and women who risked their lives to search for and recover 
victims, to remove debris at the site, to carry out the 
recovery efforts at Ground Zero at 9/11.
    It certainly is an important issue to me both as Attorney 
General and as someone who was in New York on 9/11 and who had 
friends and former colleagues who were in that group of those 
who were on the scene and who were involved in those 
activities. This is, in fact, a serious issue for those who 
were affected by it, and I greatly appreciate your expression 
of compassion for those who have fallen ill.
    With respect to the bill that is currently pending, 
certainly, on behalf of the Department of Justice, we would do 
all that we could to work with you to make sure if there were 
any questions or issues they could be addressed. And we hope 
that there would be none.
    This is, indeed, an important issue. And, again, I think it 
is something that deserves, certainly, strong review, serious 
consideration. And please let us know how the Department can be 
of assistance to any of the Members as they consider this 
important issue.
    Mr. Nadler. Well, thank you.
    As you may know, Chairman Goodlatte and others on the 
Judiciary Committee have introduced legislation to reopen the 
VCF. Unfortunately, their bill would open the fund only 
temporarily and would authorize very limited funding. It was 
heavily criticized as a result.
    The Zadroga bill, however, is a permanent reauthorization 
and has broad bipartisan support--again, 247 House cosponsors 
and 65 Senate cosponsors. The Zadroga bill, like the black lung 
program that we had for black lung survivors, like the nuclear 
program we had for people who were irradiated as a result of 
nuclear tests, is permanent, recognizing the permanent nature 
of their disabilities.
    I hope you will thank the President for signing the 
original Zadroga bill into law in 2010 and do everything you 
can to see that this legislation is permanently reauthorized 
and fully funded as soon as possible.
    Attorney General Lynch. Yes. Thank you, sir.
    Mr. Nadler. Thank you.
    I have another question on a different topic. Mr. 
Sensenbrenner referred and you referred to the statute that 
says that you can't bring Guantanamo detainees to the United 
States. I think the Chairman in his opening remarks commented 
obliquely that this might be dangerous to do so, et cetera.
    My question is the following: Forgetting the legalities for 
the moment, if Guantanamo were closed, if detainees were 
brought to super-max security facilities, prisons in the United 
States, in what conceivable way could this threaten anyone's 
safety? In what conceivable way could housing someone in a 
super-max Federal prison affect the local community, especially 
when you're talking about 60 or 70 people, not 7,000 people, 
throughout the country? And has anyone ever escaped from a 
super-max Federal facility?
    Attorney General Lynch. Well, certainly, as a tribute to 
the strong efforts of the Bureau of Prisons, I do not believe 
anyone has escaped from super-max.
    Mr. Nadler. Ever.
    Attorney General Lynch. As far as I know, they have never 
escaped from super-max. And, certainly, the men and women at 
the Bureau of Prisons are dedicated professionals and do 
everything in their power to run that institution in a way that 
protects the American people but also contains the security 
issues therein.
    With respect to your question, Congressman, it certainly is 
difficult to say. Obviously, I have the greatest pride and 
respect for the brave men and women of the Bureau of Prisons. 
Indeed, I feel that the men and women of the entire Department 
of Justice can do anything. So, certainly, I think that they 
are up to any task that is assigned to them. And, of course, we 
look forward to working with Congress to consider these issues 
should such a change be made.
    Mr. Nadler. And so in other words, the summary of your 
testimony is that bringing people to supermax prisons would 
pose no danger to anyone in communities or in the United 
States.
    Attorney General Lynch. Well, Mr. Congressman, certainly I 
am not in a position to say that any prisoner poses no danger 
ever. We certainly have the security regulations over a host of 
dangerous inmates for very, very significant reasons. But I am 
of course tremendously proud of the work of the men and women 
of the Bureau of Prisons.
    And of course this issue is one that is before Congress. I 
believe it is going up, as has been indicated to the White 
House. And we would work with Congress with respect to whatever 
decisions are made in providing information that could best 
inform its decisions.
    Mr. Nadler. Thank you. I see my time has expired.
    Mr. Goodlatte. The time of the gentleman has expired.
    The Chair recognizes the gentleman from Texas, Mr. Smith, 
for his questions.
    Mr. Smith. Thank you, Mr. Chairman.
    Madam Attorney General, under this Administration the 
number of sanctuary cities has doubled to about 340 
jurisdictions. As a result, many innocent Americans have been 
killed. What are you doing to discourage jurisdictions from 
claiming sanctuary status?
    Attorney General Lynch. I'm sorry, the last part of your 
question, Congressman?
    Mr. Smith. The number of sanctuary jurisdictions has 
doubled under this Administration. What are you doing to 
discourage municipalities from asserting sanctuary status? By 
doing so, of course, they are endangering Americans, because 
individuals released who commit crimes, including murder, rape, 
and so forth. What are you doing to discourage sanctuary 
cities?
    Attorney General Lynch. Well, Congressman, with respect to 
the issues that you raise, certainly they are very serious. We 
are committed to enforcing our criminal and immigration laws.
    Mr. Smith. But there is a law on the books that prohibits 
sanctuary cities. What are you doing to enforce that law?
    Attorney General Lynch. I believe the designation of a 
sanctuary city is something that was in the purview of----
    Mr. Smith. No. It is actually in an act I introduced that 
became law in 1996.
    Attorney General Lynch. I'm sorry. I am having trouble 
hearing you.
    Mr. Smith. Okay. There is clearly a law in existence that 
prohibits jurisdictions from refusing to cooperate with the 
Federal Government when it comes to detaining criminal aliens, 
criminal immigrants. What are you doing to enforce that law?
    Attorney General Lynch. Well, where we have a situation 
where that situation occurs we certainly would talk with that 
jurisdiction. We would reach directly in and enforce the 
criminal laws against the individuals themselves.
    Mr. Smith. But you're not doing so. Give me one example 
where you have enforced current law that prohibits 
jurisdictions from claiming sanctuary status.
    Attorney General Lynch. Well, what I'd like to do, sir, is 
study that issue and provide information to you on that point.
    Mr. Smith. I would hope that you'd have more knowledge 
about enforcing immigration laws than that, but I will await 
your report as to what you have done.
    The next question is, a recent IG report found that 
Chairman Chaffetz's Secret Service file was improperly accessed 
and publicly disclosed by Secret Service managers. This may 
have violated the Privacy Act, the Computer Abuse Act, and 
perhaps amount to obstruction of justice. Have you taken any 
disciplinary action whatsoever against the Secret Service 
managers involved with the disclosure of that file?
    Attorney General Lynch. Congressman, my understanding is 
that that matter is being handled by their inspector general. 
The Secret Service is part of the Department of Homeland 
Security. And so with respect to those specific administrative 
or disciplinary actions my understanding is that their 
inspector general is reviewing that.
    Mr. Smith. Some of the laws that may have been violated 
come under your jurisdiction. Are you aware of any 
investigation by DOJ into that matter or not?
    Attorney General Lynch. I'm not able to comment at this 
time. I would certainly provide information to you.
    Mr. Smith. Okay. And you would certainly let the Member 
involved know of any investigation, would you not?
    Attorney General Lynch. I'm sorry, sir?
    Mr. Smith. You would certainly let the Member involved know 
of any investigation, would you not?
    Attorney General Lynch. Well, typically we do not comment 
on whether an investigation is open or not. With respect to 
whether----
    Mr. Smith. I know. I'm not asking you to comment publicly 
on the details. I'm asking you if you would alert the Member if 
there was an investigation ongoing?
    Attorney General Lynch. Are you referring to the member of 
the Secret Service?
    Mr. Smith. No, the Member of Congress whose files were made 
public.
    Attorney General Lynch. The Member of Congress. Thank, you, 
sir. We would certainly do everything we could to provide 
whatever information we could consistent with our law 
enforcement obligation.
    Mr. Smith. Okay, thank you.
    And then let me ask you one more question about the FBI, 
and that is, to your knowledge, has the President or any White 
House staff or you or any of your staff attempted to influence 
the FBI's investigation of former Secretary Clinton?
    Attorney General Lynch. No, sir.
    Mr. Smith. Okay. Do you have any idea when that 
investigation will be completed?
    Attorney General Lynch. Well, I'm not able to comment on 
the status of that matter and we typically do not comment. And 
also it's impossible to predict when any matter will be 
concluded. So I'm not able to give you information on that.
    Mr. Smith. Right. And I'm not asking for a comment on the 
contents of the investigation, just an idea when it might be 
finished. Or have you heard when it might be finished?
    Attorney General Lynch. Sir, again, I'm not able to comment 
on the timing of the conclusion of any matter.
    Mr. Smith. Okay. Thank you.
    Thank you, Mr. Chairman.
    Attorney General Lynch. Thank you, sir.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentlewoman from California, Ms. Lofgren, for 5 
minutes.
    Ms. Lofgren. Thank you, Mr. Chairman.
    And thank you, Attorney General. It's a pleasure to have 
you here, and I look forward to working with you, not only 
today, but in the months ahead.
    As you likely know, I am on the Immigration Subcommittee 
and I follow closely what your Department is doing in that 
arena. Your predecessor, Attorney General Holder, testified in 
2013 before the Senate, and this is a direct quote: ``It is 
inexcusable that young kids, 6, 7 year olds, 14 year olds, have 
immigration decisions made on their behalf against them and 
they're not represented by counsel.''
    Now, in July of this year, the American Immigration Council 
and several other organizations filed a class action lawsuit in 
District Court in the Western District of Washington 
challenging the validity of removal proceedings for children 
without appointed counsel. And their argument was that an 8-
year-old couldn't receive a full and fair hearing in the 
immigration court without representation.
    As you know, I'm sure, the Administration has made efforts 
to provide counsel to small children by funding nonprofit 
groups, but the Assistant Attorney General who argued, I think 
a Mr. Leon Fresco, actually argued contrary to that in the 
District Court. And I'm wondering if the Department's position 
has changed since Mr. Holder left the Department and whether 
you think it could meet due process to have an 8-year-old who 
speaks only Spanish appear in immigration court without a 
lawyer and be able to argue the nuances of immigration law and 
asylum law. Do you think that meets due process requirements?
    Attorney General Lynch. Thank you, Congresswoman.
    With respect to the argument that was made on the issue, of 
course I'd have to review those pleadings to understand the 
specific context and whether or not there was an appropriations 
issue involved as to whether----
    Ms. Lofgren. Fair enough. What do you think about the due 
process issue?
    Attorney General Lynch. And, again, thank you for that 
issue, because it is an important one. And as you noted, 
certainly it's the Department's position that as a general 
matter all who appear before tribunals, whether they be courts, 
administrative bodies, tend to have a more efficient process 
and a fairer process if they are represented by counsel. 
Certainly we have statutes and laws to that effect with regard 
to adults, criminal matters, and the like.
    For those children, also it certainly would seem to 
increase efficiency of the entire process to have counsel. And 
as you've noted, I believe through our grant process we have 
supported nonprofit or NGO organizations that have provided 
counsel there for those children.
    Ms. Lofgren. So you're not willing to say that it doesn't 
meet due process requirements at this point?
    Attorney General Lynch. Well, what I'd like to do is look 
at the procedures that are in place before I made a 
constitutional determination about due process. But I certainly 
do agree that it's an area of concern and that as a general 
matter we support counsel in proceedings for litigants, 
particularly children.
    Ms. Lofgren. Let me ask you this. The Department of 
Homeland Security Office of Inspector General has done an 
analysis of--we have many people from Central America in 
particular who are seeking asylum. And what he reports, that 
there is a review called Operation Streamline that found that 
the Department of Justice has actually prosecuted asylum 
seekers for illegal entry before their asylum case is heard.
    And it seems to me that while not only does that violate 
the requirements of international law, but it doesn't seem like 
an efficient use of resources. If someone gains asylum under 
the law, then their prosecution would not be very pertinent. 
And I'm wondering, have you reviewed that IG's report yet?
    Attorney General Lynch. I have not reviewed that specific 
IG's report. What I can tell you is that the prosecution and 
apprehension of individuals at the border is one to which not 
just the Department, but the specific U.S. attorneys in those 
border States devote significant time and attention. And steps 
are taken at the initial level to try and ensure that those who 
are seeking asylum are handled appropriately and that those who 
are coming in for other intents and purposes are handled 
through the immigration law system and often the criminal law 
system.
    Ms. Lofgren. Can I ask you whether you would please take a 
look at that report and make sure that we're actually using our 
resources in a sensible way relative to asylum seekers?
    Attorney General Lynch. Certainly. We are always happy to 
review the way in which we use our resources.
    Ms. Lofgren. Finally, I want to mention a situation. We've 
had a class action complaint that's now moot because the 
individuals who filed the complaint have been released from 
detention. They're mothers who were being held in prison with 
their children in Karnes. And they had a demonstration and in 
response they were put in solitary confinement with their 
children. And their argument was that they have free speech 
rights.
    Here's my question. Do you think immigrants in detention 
are entitled to constitutional rights of due process and the 
First Amendment and the like?
    Attorney General Lynch. Well, I certainly think that when 
it comes to the conditions in our detention centers we need to 
do all that we can to ensure that treatment is fair, humane, 
and cognizant of the individual rights of all of those who come 
through those systems.
    I think that we have recognized certain rights for those 
within our borders, certain rights for citizens in varying 
degrees with respect to the Constitution. But barring that or 
even taking it into consideration, certainly I believe that all 
of our detention centers should be run efficiently, fairly, and 
humanely.
    Ms. Lofgren. I see that my time has expired, Mr. Chairman. 
Thank you for allowing me to go a little bit over.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
California, Mr. Issa, for 5 minutes.
    Mr. Issa. Thank you, Mr. Chairman.
    General Lynch, as you may recall, a woman working for the 
IRS named Lois Lerner was held in contempt by the Oversight and 
Government Reform Committee and the full House and referred to 
the Department of Justice under your predecessor. Do you recall 
that?
    Attorney General Lynch. Sir, I am aware of the reports of 
that. Thank you, sir.
    Mr. Issa. Speaking of those reports, the Committee reviewed 
more than a million documents, did approximately 50 interviews, 
and produced a report. Are you familiar, have you read that 
report?
    Attorney General Lynch. I have not had occasion to read the 
Committee's report, sir.
    Mr. Issa. Well, the Senate Finance Committee released a 
bipartisan report in August of this year finding that the IRS 
abused conservative applicants for nonprofit status--I repeat, 
abused applicants. Did you read that report?
    Attorney General Lynch. I have not had occasion to read 
that report, Congressman.
    Mr. Issa. Well, the gentleman sitting behind you signed on 
your behalf about an 8-page report explaining to us why nothing 
went wrong legally at the IRS. Are you familiar with that 
letter to Congress?
    Attorney General Lynch. Yes, I'm familiar with the letter 
that the Department has provided to Congress on this matter, 
sir.
    Mr. Issa. And in that case you didn't just indicate that in 
fact no laws were broken, you indicated that it was just 
mismanagement and that you found no laws broken. Isn't that 
correct?
    Attorney General Lynch. Actually, Congressman, I believe 
that our review found that the management of the process by 
which tax-exempt applications were handled at the IRS was 
characterized by mismanagement and inefficiency in numerous 
circumstances.
    Mr. Issa. Right. So you found that there was an 
administrative problem, not a legal problem.
    Madam General, are you familiar with 2 U.S.C. 194?
    Attorney General Lynch. I'm sorry, sir?
    Mr. Issa. 2 U.S.C. 194, and I'll refresh your memory. It 
states, a statute covering congressional contempt states that 
it shall be the duty of the relevant U.S. attorney to bring the 
matter before the grand jury. In the case of the referral of 
Lois Lerner for contempt, the U.S. attorney failed to comply 
with that law under your predecessor.
    Are you willing to comply with that law? Are you willing to 
have the current U.S. attorney comply with 2 U.S.C. 194, which 
very clearly says, shall have the duty, not may, not can make 
an independent decision about whether or not that individual 
has done wrong or should be held in contempt? Will you comply 
with 2 U.S.C. 194 and instruct your U.S. attorney to bring that 
contempt before Congress?
    Attorney General Lynch. Congressman----
    Mr. Issa. Before the----
    Attorney General Lynch. Before the grand jury.
    Mr. Issa [continuing]. Grand jury.
    Attorney General Lynch. Congressman, I believe that matter 
has been reviewed by the U.S. attorney at the time and the 
prosecutorial decision was made and we're not looking back on 
that.
    Mr. Issa. Okay. Again, 2 U.S.C. 194 states that it shall be 
the duty of the relevant U.S. attorney to bring before the 
grand jury. The U.S. attorney did not do so. Is it your opinion 
that ``shall do'' in a law passed by both houses of the 
Congress and signed by the President is a discretion?
    Attorney General Lynch. Congressman, I believe that the 
matter was reviewed by the former U.S. attorney.
    Mr. Issa. No, ma'am, I'm asking you for a decision. When 
something says that you or your employees shall do something, 
do you believe that that's discretion?
    Attorney General Lynch. Sir, as I indicated, I believe that 
in the exercise of prosecutorial discretion the matter was 
handled and resolved.
    Mr. Issa. Okay. Well, then, we simply disagree on what the 
meaning of ``shall'' is. And I guess for your purposes 
``shall'' and ``may'' in the thesaurus are synonyms. Is that 
correct, that ``shall'' and ``may'' are equally able to be 
decided by your choice? I'm not trying to be argumentative, but 
you're telling me ``shall'' is something that has discretion. 
What part of discretion is in ``shall do''? ``Shall'' is you 
will do, isn't it?
    Attorney General Lynch. Congressman, in the exercise of 
prosecutorial discretion that decision was made.
    Mr. Issa. Okay. So you have no respect for laws passed if 
you don't like them. You think you have discretion when 
something says ``shall'' is what you're testifying to today.
    My question to you is, during your predecessor the 
Committee on Oversight and others asked for a woman working for 
you, Ms. Bosserman, and wanted to do a transcribed interview. 
At that time, the Department of Justice said she would not be 
made available because there was an ongoing investigation. 
Since you have now dismissed that investigation, are you 
prepared to make her available to Committees for a transcribed 
interview?
    Attorney General Lynch. Congressman, it is the practice of 
the Department not to provide line attorneys for congressional 
testimony. We seek to provide the information that will help 
you in your oversight duties. The testimony of----
    Mr. Issa. Mr. Conyers is still sitting here at the dais. 
Mr. Conyers very bravely took on the Bush administration. Where 
relevant U.S. attorneys and case law effectively now is that in 
fact if a Committee of Congress wants somebody, it is not a 
discretion to say no. In the case of Harriet Miers, that was 
pretty well adjudicated, and Mr. Conyers as Chair made it very 
clear that Congress has a right to have someone.
    Again, I'll ask you finally. Previously the reason was not 
that you would not make a line attorney available, but Ms. 
Bosserman was part of an ongoing investigation. Since that 
investigation is done, are you saying today that you refuse to 
have her available under any conditions?
    Attorney General Lynch. I'm saying that I am being 
consistent to the policy of the Department of Justice that we 
do not make line attorneys available.
    Mr. Issa. I'm not asking a policy question, I'm asking 
about one individual----
    Attorney General Lynch. That would include that individual.
    Mr. Issa [continuing]. When there is no ongoing 
investigation, they would like to talk about a past 
investigation. If she is requested, will you make her 
available?
    Attorney General Lynch. Congressman, as I've indicated, we 
provide information to the Committee and we seek to do so 
through a number of means, as we have indicated. We've provided 
a letter, and we are certainly happy to continue with our offer 
of a briefing to the full Committee on this matter.
    With respect to line attorneys of any investigation, it is 
not the policy of the Department of Justice to have the line 
attorneys testify, because they do their work independently and 
focusing solely on the facts and the law, and we do not want 
them having to deal with the issue of a political review of 
their work. They are focused solely on the facts and the law 
and they follow the evidence where it leads.
    As I've indicated with respect to the letter, and as I 
believe the previous Deputy Attorney General indicated, in this 
matter we are happy to provide information to this Committee. 
And I believe we have offered a briefing to Members of the 
Committee on the matter as well, and we do certainly stand by 
that offer.
    Mr. Issa. Mr. Chairman, I appreciate the indulgence for her 
answer, as insufficient as it was.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentlewoman from Texas, Ms. Jackson Lee, for 5 
minutes.
    Ms. Jackson Lee. Mr. Chairman and Ranking Member, thank you 
very much.
    General Lynch, thank you so very much for your service. And 
might I as well thank your staff, who have always been 
responsive to me in particular and to the Members of this 
Committee as we've tried to work toward justice for the people 
of the United States.
    A moment, I just want to as I begin my questioning say to 
you I apologize, there are going to be pointed questions, that 
if I can get yes and no, we'll work on it, it would be helpful 
so that I can get through them. As I do so, let me offer to the 
people of France again our deepest sympathy.
    This Committee in particular is well aware of the impact of 
terrorism. Our Subcommittee on Crime is a Subcommittee that is 
Crime, Terrorism, Homeland Security, and Investigations. And so 
I offer it to the people of France, and certainly we stand 
united with them as the Justice Department through the 
President of the United States have been already working.
    To that point I have a headline that says, ``U.S. Justice 
Department working with French authorities after attacks,'' 
which is a good thing, and I say that because there has been a 
massive race by various States to make pronouncements of 
blocking Syrian refugees, people seeking asylum. And I 
understand the fear. I hope we do not operate under fear.
    So my question is, is your confidence in procedures. And I 
would suggest that there be an interagency task force, as I 
hope that we will have a task force either out of this 
Committee, the Judiciary Committee, on Paris, or either, I know 
that there is one recommended by the majority, but that we will 
have one that is bipartisan on this issue to be helpful to the 
Administration.
    Do you feel confident in our processes as a partner to this 
process of being able to discern who amongst those suffering 
people would be a bad guy? I understand we're doing 10,000, I 
think that's the number the President has offered. Do you 
perceive your processes to be assured and sure?
    Attorney General Lynch. Thank you, Congresswoman. And I do 
look forward to continuing this dialogue with you on this 
important point.
    We do have robust screening measures in place. They include 
not just databases, but also individual interviews, biometric 
data. We gather all relevant information about refugees from 
all countries, because our first goal is the protection and 
safety of the American people, as well as carrying out the 
compassionate nature also of the American people.
    Ms. Jackson Lee. And you feel comfortable if a terminology 
was used that you would certify that you could be confident on 
those that you processed, that you had used every measure to 
certify their nonintent to do harm in this country?
    Attorney General Lynch. Certainly we would use every 
measure, as we always do, to ensure that those who were allowed 
into the country would not pose a threat to the American 
citizens.
    Ms. Jackson Lee. I look forward to working with you. Let me 
move on to law enforcement and emphasize that obviously they 
become more important in these times, and we thank them for 
their service. But we also know, and I think your testimony 
earlier said that we are better when they are better.
    What is your thought? We introduced the Law Enforcement 
Trust and Integrity Act which includes a provision on data 
collection, but it also includes provisions on accreditation 
that the National Association of Police Chiefs has always 
supported.
    What do you think the importance of having departments 
subject themselves for accreditation, determining best 
practices, and helping them as well as the American public?
    Attorney General Lynch. Congresswoman, in my discussions 
with law enforcement across the country I have found them eager 
for assistance in sharing best practices. I have also found 
them eager for recognition of their professionalism, and 
accreditation is one way to do that. I think there are a number 
of ways to do that. Certainly we in the Department are working 
with a number of the police organizations to try and develop 
consistent and national standards on data collection, and we 
rely heavily on their expertise for guiding those standards. 
And we would look to start with that same process with regard 
to any move toward accreditation also.
    I have found that law enforcement, frankly, is focused on 
professionalism and focused on spreading those best practices 
as best they can.
    Ms. Jackson Lee. Let me do this so that my Chairman will 
not gavel me. Let me quickly raise three points, sentencing 
reform and the value of reducing mass incarceration, 
legislation that will reduce the treatment of juveniles and put 
it in a positive. I'd like you just to make overall comment on 
that.
    And then the idea of no fly for foreign terrorists, meaning 
those who've gone to the fight, being particularly discerned 
before coming back into the United States. If I could get that.
    And then let me close on these three points if I could, 
please, which are very important. I know that I'm leaving out 
some important points that I wanted to make.
    The voting rights, you already had a question on that, but 
isn't it more efficient on a preclearance approach such that it 
had might be more helpful for us to reinstate that preclearance 
because it would be more efficient? And I'm going to give you 
these. Three cases, if I could meet with your staff on them, 
are really a blatant miscarriage of justice. The Sandra Bland 
case, we have not had a response from the Justice Department. 
The case of Robbie Tolan that went all the way up to the 
Supreme Court and indicated he had been mistreated. He lived 
and was shot by an officer on his driveway. And then a 
nonviolent person that is in the State prison of Texas with a 
life sentence for a nonviolent drug offense, first offense. It 
is almost unbelievable.
    So I would like you to answer just the questions that I 
just gave you and these ones about the cases I would like to 
meet as soon as possible with your staff on these issues.
    Attorney General Lynch. I look forward to continuing to 
work with you on those important issues.
    Certainly with respect to voting rights, the preclearance 
remedy was one that we found to be not just effective, but 
efficient, and we felt that it was a way in which way to engage 
with jurisdictions as they contemplated changes to their laws 
and prevent them from going down a road that would have 
disenfranchised their citizens.
    Certainly, we felt that it was efficient and much less 
costly than litigation. It is an important part of the Voting 
Rights Act, and we certainly support the efforts to restore the 
preclearance remedy to the Voting Rights Act.
    Ms. Jackson Lee. I said juvenile justice, clemency, and--
juvenile justice--I'm sorry, juvenile justice--I had asked you 
to do juvenile justice, prison reform, and the sentencing 
reform, reducing mass incarceration, the value of that.
    Attorney General Lynch. Certainly. With respect to----
    Mr. Goodlatte. The time of the gentlewoman has expired, but 
the witness can answer the question.
    Ms. Jackson Lee. I thank the Chairman for his indulgence.
    Attorney General Lynch. Thank you, Mr. Chairman.
    With respect to sentencing reform, we feel it is a vital 
measure that recognizes that while we put measures in place 
several years ago designed to protect the American people, as 
we look back on those measures we see the collateral 
consequences that it did not just to citizens but to 
communities. And we also are able to evaluate with the passage 
of time whether or not those lengthy sentences were the most 
effective way to deal with the offenders that they tended to 
sweep up.
    So certainly as a part of an overall review of our criminal 
justice system to make sure it is always as efficient and fair 
as possible, sentencing reform has an important role to play in 
that, and the Department is supportive of not just this 
Committee's efforts, but Congress' efforts in that regard.
    Ms. Jackson Lee. And we'll look forward to meeting with 
your staff, hopefully this week, about these cases that I 
mentioned, including Sharanda Jones.
    Attorney General Lynch. Thank you, Congresswoman.
    Ms. Jackson Lee. Thank you.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Virginia, Mr. Forbes, for 5 minutes.
    Mr. Forbes. Chairman, thank you.
    Madam Attorney General, thank you go for being here today.
    Attorney General Lynch. Good morning.
    Mr. Forbes. And I know you know well that the mission--one 
of the parts of the mission of the U.S. Department of Justice 
is to ensure public safety against threats, foreign and 
domestic. I have a couple of news articles, and I know that we 
don't treat them for the truth of what's always in them, but we 
have to pay attention to them. One of them was Fox News that 
talked about ISIS having certain terror cells in 15 States and 
targeting those States. And then one where we're told by CBS 
News national security correspondent reporting that the 
Pentagon was notifying various soldiers who had appeared on 
lists and neighborhoods and cities that had been targeted by 
ISIS throughout Virginia and were actually trying to get the 
police to increase patrols in these particular neighborhoods of 
these cities.
    And my question to you is, would you not conclude that it 
would be reasonable to conclude that if terrorists were brought 
from Guantanamo Bay to a particular city in the United States 
that it would be reasonable to conclude that that could 
increase the likelihood that one of those cities could be 
placed on one of these lists, be it from ISIS leadership or 
some domestic ISIS copycat in the United States?
    Attorney General Lynch. Well, Congressman, I'm certainly 
not able to speculate as to what a detainee may or may not do 
if they were in the U.S.----
    Mr. Forbes. Let me correct that, Madam Attorney General, 
because you apparently didn't understand my question. I'm not 
talking about what the detainee would do. I'm talking about if 
you brought terrorists from Guantanamo Bay and located them in 
a particular city in the United States, would it not be 
reasonable to conclude that that might enhance the likelihood 
that that city could be placed on one of these targeted lists?
    Attorney General Lynch. With respect to the list that you 
refer to, I'm not aware of the source.
    Mr. Forbes. I'm not asking you that. I'm saying you know 
that there are lists that are around. Are you disputing that 
you have no knowledge that there are even any allegations of 
these lists around the country today?
    Attorney General Lynch. Well, Congressman, with respect to 
the matters that you've mention regarding the Fox News report, 
as I indicated, I'm not aware of----
    Mr. Forbes. So you're not aware that there is any list in 
the United States today that target particular cities or States 
by ISIS or someone claiming to be representative of ISIS?
    Attorney General Lynch. As I indicated, with respect to the 
first article that you mentioned----
    Mr. Forbes. No, no, any of them, I'm talking about any of 
the lists, Madam Attorney General, you're not aware of any of 
these lists?
    Attorney General Lynch. Congressman, with respect to the 
lists that you mention, I thought that you mentioned two, and 
perhaps I did not understand your question.
    Mr. Forbes. I'm saying any of these lists. My question for 
you is, wouldn't it be reasonable to conclude if you brought 
terrorists from Guantanamo Bay and located them in a city that 
it could very well enhance that city's being on one of these 
targeted lists, yes or no? That's a pretty easy question. If 
you disagree with that, you can say no, if you agree with it, 
yes.
    Attorney General Lynch. Well, Congressman, I thought you 
were referring to the Servicemembers who are on those lists.
    Mr. Forbes. I'm making it clear, any list that targets a 
city or State in the United States, if you bring terrorists 
from Guantanamo Bay wouldn't it be reasonable to conclude that 
that can enhance that city's ability to be on one of those 
targeted lists?
    Attorney General Lynch. I think there are any number of 
factors----
    Mr. Forbes. Would you not agree that that would be a factor 
that would enhance that ability?
    Attorney General Lynch. I think there are any number of 
factors.
    Mr. Forbes. Would that be a factor?
    Attorney General Lynch. There are any number of factors.
    Mr. Forbes. But you would disagree that that would be one 
of those many number of factors?
    Attorney General Lynch. Congressman, I don't agree or 
disagree. I say that there would be any number of factors.
    Attorney General Lynch. So then you, as the Attorney 
General of the United States, you do not have an opinion 
whether or not bringing terrorists from Guantanamo Bay and 
locating them in a city would have any capability at all of 
putting that city on a hit list by ISIS? You don't even have an 
opinion on that?
    Attorney General Lynch. Congressman, I think there are any 
number of factors.
    Mr. Forbes. I'm asking you, would that be one of those 
factors?
    Attorney General Lynch. I believe I've indicated there 
would be any number of factors.
    Mr. Forbes. No, you have indicated you wouldn't answer the 
question. And, Madam Attorney General, I think that's 
atrocious, that you don't even have an opinion of that.
    Let me ask you this then in the limited time I have, if 
you'll answer this question. You talk about data. We have 
certain of these events in Ferguson and Baltimore that you'll 
have an event and that will escalate into violence, and you 
talked about the police. Have you attempted to gather any 
information about outside organizations that may come from 
outside the community that may come into those communities and 
also escalate that violence?
    Attorney General Lynch. We do gather information on 
individuals, as well as organizations that are involved in 
that.
    Mr. Forbes. Do you have a report that you can provide to 
this Committee of your investigation and what that has included 
with a list of those organizations?
    Attorney General Lynch. Congressman, we do not generate a 
report. What I was indicating was that in our review, if a 
matter is referred to us, particularly if there was a violent 
issue, we would look at individuals who were involved in that.
    Mr. Forbes. I'm not talking about whether it's a crime. Do 
you have any information as to whether or not--you talked about 
police escalating the violence. Do you have any information you 
can supply this Committee that these outside groups may be 
coming in and also escalating that violence?
    Attorney General Lynch. Congressman, the reports that we do 
would not focus solely on one factor. They would focus on----
    Mr. Forbes. So you haven't focused at all on outside groups 
that could come in and escalate the violence?
    Attorney General Lynch. Sir, if a matter is brought to our 
attention it would come under our review.
    Mr. Forbes. But you haven't done any.
    Attorney General Lynch. We don't have a report for you on 
that, sir.
    Mr. Forbes. But have you done any investigation?
    Attorney General Lynch. Sir, if a matter brought it our 
attention, it would come under our review.
    Mr. Forbes. Well, Mr. Chairman, with that, I yield back 
without getting a single answer to a single question we posed.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Tennessee, Mr. Cohen, for 5 minutes.
    Mr. Cohen. Thank you, Mr. Chair. And.
    I'm going to be like Ms. Lee and ask you a lot of questions 
because there's a lot on my mind.
    Attorney General Lynch. I'm sorry, sir, I can't hear you.
    Mr. Cohen. I said, I'm going to ask you a lot of questions 
because there's a lot on my mind and we have limited time.
    In July a young man named Darrius Stewart was shot and 
killed by Memphis police. He was a passenger in a motor vehicle 
stopped for a traffic citation. Yet he was asked to get out of 
the car, they looked at him, they put him in the car, a tussle 
occurred, he was shot and killed. The DA asked the grand jury 
to indict for voluntary manslaughter. The grand jury chose not 
to. How that was presented, who knows, obviously not as well as 
a ham sandwich could have been presented.
    I've asked the Department of Justice to look into it. Your 
first response is you'd monitor the case. Now that the case has 
gone through the grand jury process and not gotten the result 
that the DA wanted, I would like to ask, as I've asked in 
writing before, for the Department of Justice to look into this 
case and see if civil rights violations may have occurred.
    Attorney General Lynch. I would like to have my staff reach 
out to you and get that information, sir.
    Mr. Cohen. Are you familiar with the case?
    Attorney General Lynch. I am not currently familiar with 
the case, although we have a number of similar matters under 
review.
    Mr. Cohen. Well, I hope you will become familiar because 
it's a situation that many people in the city of Memphis, 
including myself, feel was a miscarriage of justice, equal to 
any of those others in the United States. And for some reason 
it hasn't risen to the radar of the United States Attorney 
General and I hope it will.
    The DEA took a 2015 National Drug Assessment Summary, and 
at that particular summary or study most agents said marijuana 
was like at 5 percent in total risk to society and meth and 
heroin were the most serious drugs challenging them and the 
American people. Do you agree that we should spend more time, 
our law enforcement, working against meth, heroin, and opiates 
and not marijuana?
    Attorney General Lynch. Congressman, I think that with 
respect to our narcotic laws what we try and do both throughout 
the entire Department of Justice and at the DEA is focus on the 
specific problem in a specific region and devote resources to 
that.
    We currently have a crisis regarding heroin use and opiod 
abuse in the country and some communities have been consumed by 
that particular problem. There are, unfortunately, some 
communities that still have problems with methamphetamine, so 
there might be a different focus on the type of drugs, 
depending upon the issue.
    Mr. Cohen. Right, but marijuana is not a place--marijuana 
is not where cities have people needing marijuana and knocking 
off 7-Elevens to get some money to buy their marijuana. They're 
doing that for meth and heroin. Is that not right?
    Attorney General Lynch. Certainly we have seen violence 
associated with meth, with heroin, with prescription drugs as 
well. The type of violence associated with the marijuana trade 
typically occurs at the dealer level, at the import level, and 
I certainly have seen cases where there's been significant 
violence at that level.
    Mr. Cohen. There is. And the reason there is that violence 
is because, just like prohibition, we made it illegal. It's not 
because of the marijuana and the need to have it on the street 
level basis where people need to commit violence to get money 
to buy a drug. It's because we did the same mistake with 
marijuana that we did in the twenties with alcohol. The public 
demanded it, the racketeers, the criminals got involved. We 
made them rich and they used guns to protect their properties. 
That was a mistake.
    Do you agree marijuana should not be Schedule 1 in the same 
category as LSD and heroin?
    Attorney General Lynch. Well, with respect to the issue of 
scheduling, that is typically determined based on whether or 
not there is another use for the product. And I think that 
there would have to be studies by the FDA, among others, to 
determine whether or not a scheduling change in any drug is 
necessary.
    Mr. Cohen. But don't you agree that you have to change the 
scheduling from 1 to get the studies? I mean, there are lots of 
young people, like one of my constituents, Chole Grauer, who 
died waiting for the opportunity to get Charlotte's Web; lots 
of people who'd like to get cannabinoids. You could talk to 
Montel Williams and what it does for Multiple Sclerosis or any 
number of cancer patients who it helps with nausea or allows 
them to eat and have an appetite.
    Don't you agree, unlike Chuck Rosenberg, that medical 
marijuana is something serious and should be looked at as an 
aid to people in our society to get through difficult problems 
and not considered a joke?
    Attorney General Lynch. Well, certainly the issue of 
medical marijuana is significantly different from the criminal 
enforcement or use of marijuana. And certainly the Department 
supports the FDA's studies in the use of cannabidiols or the 
substance within marijuana that have been shown to have 
efficacy.
    Mr. Cohen. We're about to run out of time. I hate to cut 
you off. I would hope you would look into initiating, which you 
can, taking it off the Schedule 1. It's crazy to have it with 
LSD and heroin, and it should not be there and it should be 
studied.
    RFRA has been used to allow groups to discriminate against 
LGBT people, and it has been based on a 2007 DOJ Office of 
Legal Counsel opinion that said RFRA could be used to grant 
exemptions to Federal discrimination laws governing Federal 
programs. Will you commit today to instruct the Office of Legal 
Counsel to review and reconsider the 2007 OLC legal opinion 
that's being used today to justify taxpayer-funded 
discrimination counter to the President's executive order?
    Attorney General Lynch. I would like to look into that 
issue. If I could have my staff reach out to you and get more 
information on that, I would appreciate that.
    Mr. Cohen. On that same issue, holdovers from the Bush 
team--there was a hold over from Bush in the commutation office 
for 6 years. That's why the President got hardly got any 
recommendations for commutations. Can I have a commitment from 
you to give more resources to people to study prison records 
and to facilitate the sending expeditiously recommendations to 
the President for commutations of the thousands of people whose 
sentences should be commuted who are serving time for long-term 
drug offenses, nonviolent drug offenses, that aren't serving 
the American people by having them be in Federal prison?
    Attorney General Lynch. Congressman, over the last 18 
months the Department has in fact taken a significant look at 
the staffing and resource needs of the Office of the Pardon 
Attorney and sought to provide additional resources so that 
every application that comes through, whether before pardon or 
clemency, can be considered quickly and efficiently.
    Mr. Cohen. But it hasn't done that. And let me remind you 
what Dr. King said: Justice delayed is justice denied. Every 
single one of those people serving a day in prison who will 
eventually get a recommendation is having their justice delayed 
and denied.
    Mr. Gowdy [presiding]. And on that note, the gentleman's 
time has expired. And we will recognize the gentleman from 
Ohio, Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman.
    Attorney General Lynch, on February 2, 2014, Kate Duval, 
chief counsel to IRS Commissioner John Koskinen, learned that 
Ms. Lois Lerner's hard drive had crashed and they didn't have 
all her e-mails. Mr. Koskinen and the IRS waited until June of 
that year, June of 2014, to tell Congress.
    In that 4-month time period between when they learned that 
her hard drive had crashed and they didn't have all her e-mails 
and June when they told us, in that 4-month time period Mr. 
Koskinen testified twice in front of Congress and did not 
disclose the fact that they knew her hard drive had crashed.
    One month later, after they learned her hard drive had 
crashed, in March of 2014, March 4 of 2014, the IRS destroys 
422 backup tapes. Just so you understand the fact pattern, they 
know on February 2 Lois Lerner's hard drive has crashed, they 
don't have all her e-mails. Thirty days later they destroy 422 
backup tapes. And they destroy those 422 backup tapes with 
three preservation orders in place. In fact, one of those 
preservation orders came from the Justice Department.
    Ten months before that, you had told them, hey, preserve 
all the documents, preserve all the e-mails, we've got an 
investigation going on. There were two other preservation 
orders as well. So three preservation orders and two subpoenas.
    Now, that sure looks likes John Koskinen and the Internal 
Revenue Service concealed information and destroyed 
information. But just last month you guys sent us a letter 
telling us you're not going to prosecute anyone in the IRS 
targeting scandal. And you specifically say in that letter: Our 
investigation revealed no evidence to deliberately conceal or 
destroy information.
    So here's what I can't figure out. They learn on February 
2, 2014, that Lois Lerner's hard drive had crashed and they 
don't have all her e-mails. Thirty days later, with three 
preservation orders and two subpoenas in place, they destroy 
the backup tapes. So if that's not evidence of deliberately 
concealing and destroying information, what is it?
    Attorney General Lynch. Thank you, Congressman.
    With respect to the matter that you've raised, as we set 
forth in our letter, we did review the issues surrounding Ms. 
Lerner's e-mails and the backup tapes. As with every criminal 
investigation, we are looking for evidence of criminal intent 
and we are looking for evidence of the specific reasons for why 
the actions that you note----
    Mr. Jordan. How many times do you have direct evidence of 
intent in any type of other fraud investigation? I mean, you 
weren't going to get--what were you looking for, an e-mail 
where John Koskinen sends an e-mail to the guys in the tape 
room and he says destroy the tapes?
    You had three preservation orders, one of them came from 
the Justice Department, they knew there were problems with the 
hard drive and that they didn't have all her e-mails, and 30 
days after that they destroy 422 backup tapes. That's not 
enough to take it to a grand jury?
    Attorney General Lynch. Certainly, Congressman, it 
certainly was a matter that was under review, and as we have 
outlined in our letter, the findings of that review.
    Mr. Jordan. If it wasn't deliberate intent to destroy and 
conceal, what was it?
    Attorney General Lynch. Congressman, as we've outlined in 
our letter, the findings that we had based on those actions.
    Mr. Jordan. Here's what you said in your letter: ``The 
Justice Department's investigation uncovered substantial 
evidence of mismanagement and poor judgment.'' What I just 
described, was that evidence of mismanagement by John Koskinen?
    Attorney General Lynch. Well, Congressman, I'm not going to 
attribute it to just one individual, because I believe that 
certainly there would be others that would have been----
    Mr. Jordan. Was it evidence of poor judgment when Mr. 
Koskinen's chief counsel knew that Lerner's hard drive had 
crashed, he comes and testifies in front of Congress and 
doesn't tell us that and waits 4 months to tell us? Was that 
evidence of poor judgment?
    Attorney General Lynch. I can't speak to what was in his 
mind when he testified before you. What I can speak to is the 
information that we've provided to this Committee outlining the 
steps that were taken in the Department of Justice 
investigation----
    Mr. Jordan. What was is it going to take?
    Attorney General Lynch [continuing]. And the conclusions 
that were drawn. As we've indicated----
    Mr. Jordan. Here's what the American people want to know, 
Attorney General: What was it going to take before you would 
take this to a grand jury? Would Mr. Koskinen, would he have 
had to wait 5 months before he told us, 6 months before he told 
us, 8 months before he told us? Would they have had to destroy 
423 backup tapes, 450 backup tapes? Would they have to destroy 
every single backup? Would they have to destroy more evidence? 
What was it going to take before you were going to take this to 
a grand jury with three preservation orders in place, two 
subpoenas in place, they have knowledge that there's problems 
with their hard drives, that they don't have all their e-mails, 
and they destroy the backup tapes? I mean, if that fact pattern 
doesn't warrant going to a grand jury and prosecuting, tell me 
what would.
    Attorney General Lynch. Certainly, Congressman, that fact 
pattern was part of the investigation, as were a number of 
other facts in there. And as we outlined in our letter, we 
outlined not only the investigative steps that were taken, but 
the conclusions that we drew from them.
    Mr. Jordan. So who are you referring to when you say 
substantial evidence of mismanagement and poor judgment? Who? 
It seams to me the guy at the top is the guy responsible. So 
are you saying Mr. Koskinen had substantial evidence of 
mismanagement when he didn't inform Congress and when he 
destroyed 422 backup tapes? Is that substantial evidence of 
mismanagement on the part of John Koskinen?
    Attorney General Lynch. I'm not going to attribute it to a 
specific individual.
    Mr. Jordan. Who would you attribute it to? Someone's got to 
be responsible, because--let me ask you one last question if I 
could, Mr. Chairman. So you sent a preservation order to the 
IRS in May of 2013. March of 2014 they destroy 422 backup 
tapes. Now, if a private citizen gets an audit notice from the 
IRS and then 10 months later they destroy the evidence, are 
they going to be prosecuted?
    Attorney General Lynch. It would depend upon the evidence 
of intent and why they----
    Mr. Jordan. Really? I bet the average American says of 
course they're going to be prosecuted. And yet, you guys with 
that fact pattern wouldn't take it to a grand jury. Who 
mismanaged what? That's the question I want answered. Who's 
responsible? Someone has to be.
    Attorney General Lynch. I think we have outlined in our 
letter the findings of this investigation.
    Mr. Jordan. No, you haven't. You said some. I want to know 
if it's Mr. Koskinen, the guy at the top, the guy who runs the 
IRS, the guy who was presiding over the IRS when we destroyed 
the 422 backup tapes. Is he responsible?
    Attorney General Lynch. As we've indicated in our letter, 
there was substantial mismanagement. As we've outlined when we 
indicated we would provide this information to the Committee, 
we're also happy to provide a briefing to the Committee on 
other questions that you may have about this matter.
    Mr. Jordan. Thank you.
    Mr. Gowdy. The gentleman's time has expired. The Chair 
would now recognize the gentleman from Georgia, Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    General Lynch, I want to commend you and the Department of 
Justice on the fact that 70 individuals have been charged since 
2013 for conduct related to foreign fighter activity and 
homegrown violent extremism.
    General Lynch, this Committee has previously heard how ISIL 
and other terrorist organizations field potential recruits in 
publicly accessible social networking sites via encrypted 
messaging platforms and also voice over Internet apps. Are 
these encrypted private messaging platforms and also voice over 
Internet apps hampering the ability of the Department to 
quickly ascertain and address threats to national security? And 
if so, in what ways?
    Attorney General Lynch. Well, Congressman, thank you for 
the question. Certainly when individuals choose to move from 
open means of communication to those that are encrypted it can 
cause a disruption in our ability to use lawful legal process 
to intercept those communications and does give us concern 
about being able to gather the evidence that we need to 
continue in our ongoing mission for the protection of the 
American people.
    Mr. Johnson. How so?
    Attorney General Lynch. Well, with respect to individuals 
in this country, what we have seen is communications--this is 
in regard to specific cases--we've seen communications between 
them and individuals urging them to commit acts of violence, 
acts of terrorism, and then those individuals dropping from one 
type of communication to an encrypted method of communication, 
and we no longer have visibility into those discussions.
    Mr. Johnson. Well, when you say no longer have visibility 
into those discussions, can you break that down and explain 
exactly what you mean?
    Attorney General Lynch. Certainly. Typically we would with 
a lawful court order go to a communications provider and 
focusing specifically on individuals against whom we had 
probable cause to believe were involved in criminal activity, 
including terrorist activity, obtain the authorization to 
review their communications in the past as well as on an 
ongoing basis. When individuals move to an encrypted platform, 
one that is not accessible by the provider themselves, then we 
have a situation where we're not able to have our court orders 
handled in the typical way. That is to say we're not able to 
receive that information and ascertain what these individuals 
are planning and also, just as importantly, with whom they're 
planning these actions. And so we rely on other methods and 
means, but that is a loss of an important means and important 
law enforcement tool.
    Mr. Johnson. Is there any way that the Department can 
overcome the use of encrypted data and voice communications by 
terrorists who are trying to recruit within the borders of the 
United States or a terrorist plot taking place between persons 
inside the United States? Take, for example, the terrorist 
incident in Paris this past weekend where I heard one expert 
say that he would be shocked if the terrorists were not using 
encrypted communications, perhaps even during the terrorist 
events.
    How can the Department thwart that kind of activity taking 
place here on United States soil given the fact that we have 
these encrypted communications.
    Attorney General Lynch. Well, certainly it makes it very 
challenging. Our approach has been to work with the electronic 
companies, the Internet providers, on a case-by-case basis and 
help them find a way or work with them to find a way to allow 
them to respond to the valid legal process. And certainly we're 
having conversations with the industry as a whole to make sure 
that they can in fact comply with legal process and provide us 
the information that we need. We rely on other means of 
surveillance, other means of gathering intelligence about those 
individuals and their associates, but it does cause us the loss 
of a very valuable source of information.
    Mr. Johnson. Okay. With that, I will yield back, and thank 
you for your testimony.
    Attorney General Lynch. Thank you.
    Mr. Johnson. The gentleman from Georgia yields back. The 
Chair will now recognize the gentleman from Texas, Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Chair.
    And thank you, Attorney General. Appreciate your being 
here.
    Obviously people are rather sensitive to potential 
terrorism, especially since ISIS is known for keeping their 
word when they make threats, at least as often as they can. And 
we had a witness some time back, the FBI Director at that time, 
Director Mueller, and I was asking him about investigations at 
the mosque in Boston where the Tsarnaevs attended, and he 
indicated that the FBI had an outreach program with that mosque 
where they would commune together, but they never actually 
investigated at the mosque whether or not the Tsarnaevs had 
been radicalized, even after Russia gave the FBI a heads-up 
that the older Tsarnaev had been radicalized. They never asked 
any questions of the people there.
    I know I've been through materials with FBI agents that 
have been cleaned out from the teaching materials at the 
Justice Department, and for some ridiculous reason they were 
classified, so we had to do it in a closed setting. But it 
appears to me that FBI agents, Justice officials, are not even 
being allowed to be taught what it is that radical Islamists 
believe, not even perhaps that Osama bin Laden indicated that 
the Egyptian martyr Muslim Brotherhood member Qutb wrote 
``Milestones'' that actually helped radicalize him. Nobody knew 
enough to go to the mosque and ask, has Tsarnaev been reading 
Qutb, have you seen him talking about or heard him talking 
about ``Milestones''? It seems like we've blinded, as one 
intelligence official told me, we've blinded ourselves of the 
ability to see our enemy.
    So I was also surprised, since Director Mueller was FBI 
Director after al-Amoudi was arrested, based on his 
understanding the information that Britain gave us, but he's 
doing 23 years for supporting terrorism. He didn't know al-
Amoudi is the one was at the bottom of starting that mosque.
    We know that apparently al-Amoudi helped in both the 
Clinton and Bush White House find Muslims that al-Amoudi said 
could be trusted to work in those White Houses. And I'm just 
wondering, since we now know that al-Amoudi supported 
terrorism, we know that at least the Tsarnaevs, perhaps others 
who have been radicalized worshipped at that mosque, has the 
outreach program been terminated with the al-Amoudi-begun 
mosque in Boston? And has there been any investigation into 
people that al-Amoudi placed in the Clinton and Bush White 
House, now that we know he supported terrorism, he's doing 23 
years? Do you know of any such investigation?
    Attorney General Lynch. Mr. Congressman, I don't have the 
information that you're requesting, but certainly what I can 
say is that you have touched upon the issue that all of us in 
law enforcement deal with as we work not only to protect the 
American people, but to counter violent extremism that does 
pull in young people like the Tsarnaevs.
    Mr. Gohmert. Well, and I appreciate your calling it violent 
extremism. Did you have a degree in Islamic studies?
    Attorney General Lynch. I'm sorry, sir?
    Mr. Gohmert. I really don't know. Did you have any degrees 
in Islamic studies?
    Attorney General Lynch. No, sir.
    Mr. Gohmert. Well, there is a guy named al-Baghdadi, who 
happens to be head of ISIS, who has a bachelor's, a master's 
and a Ph.D. in Islamic studies from the University of Baghdad. 
He perhaps is a better expert than you and I, and he says ISIS 
is Islamic. And so I think we should take the word of an 
expert. It certainly doesn't represent the views of all 
Muslims, thank God.
    But I would encourage you to take another look at the 
Justice Department training materials, take another look at 
your outreach program, and look back and investigate who al-
Amoudi placed in those White Houses to see if they're still 
around. The FBI completely dropped the ball on Tsarnaev, and it 
concerns Americans they may be dropping the ball on the Syrians 
as we speak.
    My time has expired. I yield back.
    Mr. Gowdy. The gentleman yields back. The Chair will now 
recognize my friend from Puerto Rico, Mr. Pierluisi.
    Mr. Pierluisi. Thank you, Mr. Chairman.
    Welcome, General Lynch.
    I would like to address DOJ's mission to prevent and 
prosecute violent crime. And naturally, as Puerto Rico's only 
representative in Congress, I want to concentrate on the U.S. 
territory. This is the same topic I raised with General Holder 
each time he appeared before this Committee.
    Broadly speaking, when it comes to violent crime, the 
narrative in Puerto Rico has been positive lately. In 2011, 
there were 1,136 murders in Puerto Rico, over 3 a day, the 
highest in our history. Most of these homicides were related to 
the drug trade.
    So I pushed DHS and DOJ extremely hard to dedicate more 
personnel and resources to Puerto Rico. DHS, including the 
Coast Guard, ICE, CBP, responded to this pressure. DOJ 
responded to, but to a lesser extent than DHS.
    These enhanced Federal efforts have born fruit. The number 
of homicides in Puerto Rico has decreased significantly every 
year. In 2015 to date, there have been 508 murders. If the 
current trend continues, there will be about half as many 
homicides in Puerto Rico this year versus 4 years ago. That is 
a remarkable statistic we should be proud of.
    But we're fighting a determined enemy and the gains we have 
achieved can be easily reversed unless our efforts are 
sustained and strengthened. And the fact is, despite recent 
improvements, Puerto Rico still has a homicide rate far higher 
than any State. Yet, my staff and I have found it difficult to 
obtain answers to basic questions about DOJ efforts in the 
territory. So I want a Member-level briefing on this subject as 
soon as possible.
    In the meantime, I have three specific questions for you 
today. I will ask them all at once and then give you the time 
to answer them.
    First, the U.S. Attorney's Office in Puerto Rico has a very 
high criminal caseload. Part of the reason is that they are 
prosecuting a number of cases that in the States would likely 
be prosecuted in State or local courts as opposed to Federal 
court.
    I'm aware that the U.S. Attorney's Office in Puerto Rico 
has entered into an MOU with the Puerto Rico Department of 
Justice so that State prosecutors can be detailed to the U.S. 
Attorney's Office to work on Federal cases. While I support 
this arrangement--I'm a former AG, and in my time in the 
nineties I did something similar--I'm concerned that there are 
not enough Federal prosecutors assigned to Puerto Rico in light 
of the caseload.
    Have you looked at this issue? And if not, can you please 
look at it and have your staff brief me on your specific 
findings? Again, number of assistant U.S. attorneys in Puerto 
Rico.
    Second, as you have stated here today, DOJ has a 
comprehensive program, called the Violence Reduction Network, 
designed to reduce violence in some of our country's most 
violent cities. I believe there are cities in Puerto Rico that 
are suitable candidates for this program and I urge DOJ to 
select a Puerto Rico site in 2016. Can you assure me that 
Puerto Rico will receive due consideration for inclusion in the 
VRN program or any other DOJ program designed to combat violent 
crime?
    Finally, The New York Times just reported--or recently 
reported--that in 2014 more guns used to commit crimes in 
Puerto Rico were purchased in Florida than in Puerto Rico 
itself. What is DOJ doing to reduce the number of guns being 
unlawfully transported from Florida and other States to Puerto 
Rico and being used to commit crimes in my turf?
    Thank you.
    Attorney General Lynch. Thank you, Congressman.
    And I am happy, indeed, to have my staff arrange to provide 
further information for you on all of these points.
    I can certainly tell you that we are looking to expand our 
efforts under that MOU. And with respect to specific numbers, I 
would like to have the opportunity to look into that and 
provide you with a briefing on that.
    With respect to the firearms trafficking between the 
mainland Florida and Puerto Rico, we do have a very strong 
presence on the island of ATF, along with, as you know, a host 
of other agencies. And we are looking at ways to deal with 
that, as well. We also certainly will give Puerto Rican cities 
due consideration in the Violence Reduction Network selections 
for the upcoming year.
    I would note, however, that we are also committed, even 
beyond the Violence Reduction Network, to working with local 
authorities in Puerto Rico, as well as the U.S. attorney, to 
deal with the situation there.
    As you note, the homicide rate is down significantly, but 
it is still far too high. And that places the residents of 
Puerto Rico in an unreasonable and untenable situation. And we 
feel it is our obligation and responsibility to do all we can 
to ameliorate that.
    Mr. Pierluisi. Thank you.
    Mr. Gowdy. The Chair thanks the gentleman from Puerto Rico 
and now recognizes the gentleman from Arizona, Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank you, Attorney General Lynch, for being here.
    General Lynch, several videos, as you know, that have been 
talked about quite a bit have been released that show corporate 
officers and employees of Planned Parenthood casually 
discussing their practice of harvesting little baby parts from 
the many hundreds of thousands of innocent babies they kill in 
their clinics across this Nation every year.
    And the videos reveal that some babies are born intact, 
which is the most, I understand, desirable and marketable state 
of the baby's body for people in that business because the 
little body parts haven't been damaged by the abortion 
procedure. And because of that incentive, some of these little 
babies are born alive.
    And I'm wondering, has the Department investigated or 
enforced any cases of born-alive children being killed from 
their abortion survivors?
    Attorney General Lynch. Congressman, with respect to the 
issue that you raise, you're asking about born alive----
    Mr. Franks. Born alive, yes. Born-alive abortion survivors. 
In other words, babies that were victims of abortion but were 
born alive, much like the situation with Kermit Gosnell.
    You know, there's some legislation on the books that 
ostensibly protect born-alive children. Has the Department ever 
enforced that or had any investigations for protecting born-
alive abortion survivors?
    Attorney General Lynch. Congressman, it's my understanding 
that, since the relevant statute was passed some time ago, 
there have been some few cases that dealt with certain issues 
about--I believe the statue is the National Organ Transplant 
Act. There have been a few cases under that statute. I'd have 
to get those facts for you. I don't believe they fit the 
factual scenario that you just outlined. But I can provide that 
information to you on that.
    Mr. Franks. Okay. Well, let me shift gears, then, just 
slightly. You know, there's legislation here in the Congress 
that's passed the House that would give definitive protection 
to born-alive--now, I'm not talking about unborn children, but 
born-alive babies that have survived the abortion process. 
Would you support that legislation, and would you enforce it if 
it were in statute?
    Attorney General Lynch. Well, Congressman, I have not seen 
those drafts. Certainly, with respect to any draft legislation 
proposed by this body, the Department of Justice will review it 
and provide the relevant input to you for your help and for 
your use.
    Mr. Franks. But, generally, would you support legislation 
supporting born-alive abortion survivors?
    Attorney General Lynch. Not having not seen the drafts, I'm 
not able to comment----
    Mr. Franks. Just generally.
    Attorney General Lynch [continuing]. Specifics. We would 
look at whatever----
    Mr. Franks. Born alive.
    Attorney General Lynch [continuing]. Proposals you had.
    Mr. Franks. Born alive.
    Attorney General Lynch. We would look at whatever proposals 
you have, Congressman.
    Mr. Franks. All right. Well, that's too bad you can't 
answer a question like that.
    So let me shift gears on you again, then. Is the Department 
of Justice currently investigating Planned Parenthood based on 
the footage released by the Center for Medical Progress? And if 
so, what's the status of that investigation? And if not, why 
not?
    Attorney General Lynch. Well, we have received a number of 
requests for information as well as congressional requests and 
referrals on this matter. Because we are still reviewing it, 
I'm not able to comment on the nature or status of that at this 
time, sir.
    Mr. Franks. All right.
    In light of DOJ's recent public praise of the Southern 
Poverty Law Center--this is an organization that's implicated 
the in domestic terrorism conviction of Floyd Corkins, as you 
know, who used the Southern Poverty Law Center publications to 
identify and attempt to kill employees of pro-family 
organizations in D.C.
    It is important for us to know the DOJ's level of 
involvement with SPLC. Can you tell us about DOJ's relationship 
with the Southern Poverty Law Center and its employees, 
publications, and events? Can you give us any insight into that 
at all?
    Attorney General Lynch. Well, I certainly am aware of the 
organization, but I'm not able to give you specifics on the 
Department's involvement, if any, in the Southern Poverty Law 
Center at this time. I certainly would appreciate the 
opportunity to have my staff reach out to yours.
    Mr. Franks. Well, I hope that you would respond in writing 
to these questions, General, because you certainly haven't 
answered them here. In all due deference to you, you haven't 
answered them. And the last person that held your position 
didn't answer them either and promised to respond in writing 
and didn't do that either.
    Have you personally reviewed any of the videos released by 
the Center for Medical Progress? If so, was there anything in 
those videos that you found disturbing?
    Attorney General Lynch. Congressman, I have not undertaken 
a review of the videos. I'm of course aware of the news reports 
about them. And, as I indicated, all of the information that's 
been received by the Department is currently under review. So I 
don't have any further comment on it at this time.
    Mr. Franks. Yes, ma'am. Thank you.
    Mr. Gowdy. The gentleman yields.
    The Chair will now recognize the gentlelady from 
California, Ms. Chu.
    Ms. Chu. Attorney General, I want to bring your attention 
to the cases of Chinese-American scientists Guoqing Cao, Shuyu 
Li, Sherry Chen, and Xiaoxing Xi. All of these named 
individuals, despite their ethnic names, are American citizens, 
and all of them have been profiled, suspected, and treated as 
spies by our Nation's government within the past 2 years, only 
to have all charges dropped.
    And these are only the cases that actually reached national 
headlines. There could be countless more.
    Two of these individuals, Sherry Chen and Xiaoxing Xi, are 
here at today's hearing, sitting two rows behind you. I want to 
take a moment to share their stories with you.
    Dr. Xiaoxing Xi is a professor and the interim chairman of 
the physics department of Temple University. In May of this 
year, on a day that seemed like any other ordinary day, Dr. Xi 
and his family were woken up at the break of dawn by almost a 
dozen armed FBI agents in his home pointing guns at him. In his 
pajamas, he was handcuffed and arrested in front of his wife, 
two young daughters, and neighbors.
    After months of investigation, after losing his position as 
chair of the physics department, after the emotional trauma 
that he and all his family endured, all of the charges against 
him were dropped. It turns out the technology that the 
government thought Professor Xi was sharing with China wasn't 
the right technology to begin with.
    We also have Sherry Chen, who, like Dr. Xi, was wrongfully 
profiled and suspected of being a spy for China. She was 
arrested by six FBI officers and humiliatingly handcuffed in 
her own office at the National Weather Service. After months of 
investigation and having her reputation smeared, all the 
charges against her were dropped. Not only is she suffering 
from mental and emotional turmoil that this investigation has 
caused, she is now fighting for her job as a hydrologist within 
the Department of Commerce.
    These Chinese-Americans were wrongfully suspected of spies 
and paraded as criminals through their arrest, only to have the 
charges later dropped, but not before they were traumatized and 
their lives nearly ruined. And it leads us to question, are all 
Chinese-American scientists suspect because they are Chinese-
Americans?
    So my question to you is, what went wrong in these cases? 
And how are you addressing this internally, especially with the 
FBI, to prevent this from happening in the future?
    Attorney General Lynch. Thank you, Congresswoman.
    I can state to you unequivocally that the Department of 
Justice does not focus an investigation on any individual on 
the basis of their race or their national origin.
    Now, with respect to the specific cases that you mentioned, 
I'm not able to comment on those specifics at this time.
    Ms. Chu. Even if you can't comment on the specifics of the 
cases, I will follow up with you personally on the details of 
these cases.
    There is no question that we must fight against espionage 
and threats to American innovation, but, in this process, we 
must not ensnare innocent Americans that make this Nation great 
or undermine our fundamental values of liberty, due process, 
and equality under the law.
    This is especially true in light of the horrendous Paris 
attacks, which senselessly took over 120 lives in an act of 
terror. While we must combat terrorism and protect our national 
security, we must also not impinge upon fundamental rights. We 
must ensure that we do not see an increase in profiling against 
Muslims because of these events.
    We have seen what happens when we compromise our 
fundamental values. In fact, it wasn't too long ago that 
120,000 people of Japanese ancestry were removed from their 
homes, rounded up, and incarcerated during World War II, 
accused of having spies amongst them. They were proud 
Americans, but their citizenship meant nothing. In the eyes of 
our government, all of them were potential spies, outsiders, 
and enemies. Yet, over 60 years later, not a single case of 
espionage has ever been proven.
    Today, when we profile Chinese-American scientists in this 
manner or any American on the basis of their race, ethnicity, 
religion, or country of origin, our government is telling our 
own citizens, our own communities, that they are un-American 
and that it's okay to fear or even hate them. When this 
happens, in my opinion, we have failed as a government and as 
Americans.
    I yield back.
    Mr. Gowdy. The gentlelady yields back.
    The Chair will now recognize former United States Attorney 
from Pennsylvania Mr. Marino.
    Mr. Marino. Thank you, Chairman.
    Good afternoon, General. Welcome.
    Attorney General Lynch. Good afternoon.
    Mr. Marino. I'm going to talk briefly on drug diversion.
    Attorney General Lynch. I can't hear you.
    Mr. Marino. I'm going to talk briefly about drug diversion. 
And it's not a question, really.
    It has been a priority of mine to encourage the DEA to 
collaborate with companies in the pharmaceutical supply chain 
to address prescription drug abuse. In the past, DEA officials 
used ambiguities in the law to treat businesses like suspected 
criminals. With the support of this Committee, the House passed 
my legislation to clear up the relevant provisions of the 
Controlled Substance Act. That bill is now pending in the 
Senate, and it appears likely to be enacted.
    The Department's response to my recent questions on this 
subject, that the Department ``recently made some important 
changes that demonstrate its commitment to work more closely 
with the drug supply chain and registrants,'' is very 
encouraging to me. I will closely keep an eye on this, but I am 
optimistic that progress is being made. And I thank you for 
pursuing that.
    Attorney General Lynch. Thank you, sir.
    Mr. Marino. I'm going to switch gears now to the Bureau of 
Prisons and oversight, and I do have some questions pursuant.
    My district has three high-security Federal 
penitentiaries--I'm in Pennsylvania 10th District--Canaan, 
Lewisburg, and Allenwood. Three correction officers have died 
in recent years in the line of duty. Eric Williams was working 
alone and unarmed on a cell block with over 100 inmates at 
Canaan. He was stabbed 129 times.
    A BOP pilot program was put into place to provide officers 
with pepper spray, which I think Eric and others would have had 
a chance to survive. Will you promise and give your word to me 
that you will support this program and make it permanent to all 
the personnel?
    Attorney General Lynch. Congressman, I'm aware of the death 
that you mentioned, as well as the deaths of several of our 
other brave men and women in our correctional institutions.
    I do support additional measures to increase their safety. 
I recently actually had a meeting with the heads of the 
correctional officers unions and spoke about these issues. And 
I look forward to working with them and with this body to make 
sure that they have all of the tools that they need to have a 
safe working environment.
    Mr. Marino. Do you believe that pepper spray is one of 
these protection devices that would help officers but yet not 
have a weapon that the inmates could take?
    Attorney General Lynch. Yes, I certainly think that pepper 
spray is a viable option. I would like to see the results of 
the pilot study.
    Mr. Marino. Okay.
    Attorney General Lynch. But I also would like to make sure 
that we include every possible option----
    Mr. Marino. Thank you.
    Attorney General Lynch [continuing]. For protecting our 
correctional officers.
    Mr. Marino. Still on the Bureau of Prisons, I'm going to 
talk about staffing for a moment.
    Many of our Federal prisons are understaffed significantly 
below their authorized levels. I constantly check on this. In 
some cases, counselors, not corrections officers, fill in to 
guard inmates--counselors. Would you fully staff corrections 
officers' positions with trained officers?
    Attorney General Lynch. Congressman, I can tell you that, 
certainly, not only is the safety and security of correctional 
officers a priority of mine, but ensuring that they have the 
appropriate staffing is a priority of mine.
    It has certainly been a challenge for us from a budgetary 
perspective. We are certainly looking forward to meeting those 
challenges in the future and trying to ensure that every 
facility is fully staffed with professional officers.
    Mr. Marino. And, almost 1 year ago, the Committee requested 
all communications relating to mandatory donation provisions in 
certain DOJ settlements.
    Attorney General Lynch. I'm sorry, mandatory?
    Mr. Marino. Mandatory donation provisions in DOJ 
settlements.
    Attorney General Lynch. Thank you.
    Mr. Marino. Last week, your staff advised that they did not 
realize that we wanted internal documents. We were very, very 
clear, both via letter and in live questioning, that we were 
specifically seeking internal documents.
    There always seems to be some jockeying between Congress 
and this Administration over oversight matters. This is 
unacceptable. It's a continual problem.
    When will we receive the internal documents we requested 
almost exactly a year ago?
    Attorney General Lynch. Congressman, with respect to the 
requests that have been made, to the extent that we receive 
requests that ask for internal deliberative documents that 
typically we do not disclose, that may have been the reason for 
that.
    What we try and do is work with either staff or the entire 
Committee to provide the information that you need to carry out 
your oversight function consistent with our law enforcement and 
privilege obligations. And we certainly look forward to working 
with you to do that.
    Mr. Marino. I just hope we do not have to continue, as we 
have in the past, splitting hairs over a particular word.
    And thank you, and I yield back.
    Mr. Gowdy. The gentleman yields back.
    The Chair will now recognize the gentleman from Florida, 
Mr. Deutch.
    Mr. Deutch. I thank you, Mr. Chairman.
    Attorney General Lynch, thanks so much for joining us and 
especially in light of the horrific attacks in Paris. And I 
know that the Department of Justice is doing everything that it 
can to help its French counterparts do their part to bring all 
of those responsible for these heinous terrorist acts to 
justice.
    I also want to acknowledge the importance of the work that 
the Department of Justice does in keeping the American people 
safe. And, as we mourn with Paris, it's moments like these 
where we pull our own loved ones closer. And we trust that the 
Administration, including the Justice Department, and law 
enforcement and our intelligence community and the men and 
women who serve our country in uniform are doing all that they 
can to keep our people safe from the threat of terrorism, 
homegrown and abroad. And we're grateful for that.
    We do face daily threats of another kind here at home, 
however, and I want to talk to you about the daily gun violence 
that claims nearly 1 American's life every hour of every day 
and over 32,000 per year.
    Every day, dangerous individuals in the United States buy 
guns without completing any background check at all. And 
whether it's Dylann Roof, whose approval went through, who 
wound up murdering nine Americans at worship in Charleston 
during the summer, or whether it's gang members in Chicago, 
where more than 400 people have been killed by gun violence 
this year.
    I've served, Madam Attorney General, on this House 
Judiciary Committee for over 5 1/2 years, and, in that time, 
gun violence has claimed the lives of over 150,000 Americans. 
But we haven't had a hearing on this gun violence, not on this 
Committee, not after Tucson, not after Aurora, not after 
Newtown, not after Roseburg.
    The majority says, as the Chairman said just today again, 
that there's no reason to have a hearing. All we need to do is 
simply enforce the existing laws, we're told, and everything 
will get better.
    And before going on to my specific question for you, I'm 
sure you would acknowledge that it was, I think, helpful to 
hear the Chairman say earlier that sometimes the National 
Instant Criminal Background Check doesn't have all the 
information that it needs.
    And I would point out that after the Virginia Tech 
massacre, where that gunman's mental health record wasn't 
accessible and the court had declared him a danger to himself, 
he should never have been allowed to purchase a gun, Congress 
acted, that Congress acted, and passed legislation that was 
signed by President Bush that authorized over a billion dollars 
to States and territories to improve their recordkeeping and 
reporting to the National Instant Criminal Background Check 
system. Congress, however, has only allocated about 11 percent 
of all that money.
    And so I would ask the Chairman, consistent with his views 
that there are some problems with existing law, that we work 
together to allocate the funds so that all of the information 
gets to the National Instant Criminal Background Check System 
so that it can actually work to keep guns out of the hands of 
dangerous people. That doesn't require a new law. It simply 
requires making sure we allocate the money, that we spend the 
money that Congress has authorized over the past several years.
    Now, I do want to ask you, Madam Attorney General, about 
steps that can be taken. As you know, the gun lobbyists made it 
nearly impossible for the Federal Government to enforce some of 
our existing government laws. The Federal Government is barred 
from keeping records of gun sales for more than 24 hours. It's 
barred from denying a gun sale if a background check can't be 
completed within 72 hours. It's barred from electronically 
managing trace data, information about guns recovered at crime 
scenes and who sold them. Investigations into corrupt gun 
dealers, therefore, take months instead of minutes. It's barred 
from requiring gun dealers to keep inventories, logs, and their 
books in order. And it's barred from seeking assistance from 
other agencies like the FBI and the DEA.
    So I reject the assertion that there's no room for 
improvement. Clearly, there is. And I'll continue to push for 
sensible gun safety measures like preventing suspects on our 
terrorist watchlist from buying guns, making interstate gun 
trafficking a Federal crime.
    But, General Lynch, there may be ways, real ways, to 
strengthen background checks through Executive action--
Executive action that could save lives.
    Everytown Against Gun Violence recently issued a report on 
one potential action. Under current law, only people in the 
business of selling firearms have to conduct background checks. 
People who aren't in the business of selling firearms don't 
have to. But some of these people who technically aren't 
sellers and don't work in the business sell hundreds of guns a 
year, without background checks, at gun shows, online, or out 
of car trunks.
    We have to better define the language. Couldn't we set a 
number for how many gun sales it takes to be in the business of 
selling guns? And has your office explored that possibility, 
and are you considering a threshold like that to define who 
would be technically engaged in the business?
    Attorney General Lynch. Well, Congressman, with respect to 
the serious issue of gun violence, the Department is certainly 
pursuing all of our enforcement actions that we do have under 
existing law. And, certainly, it would always be useful to have 
additional resources for our ATF to allow them to fully 
investigate everything that we need and that comes under our 
purview.
    With respect to the question that you've raised as to a 
statutory definition, I believe the statute is going to define 
that at this time. But, certainly, the Department of Justice 
and ATF are committed to rigorous enforcement of that statute.
    Mr. Deutch. All right.
    To the extent that there is an opportunity for Executive 
action that can be taken to help define something that is 
undefined in statute, is that something that you are looking 
at?
    Or let me just simply, since I'm out of time, encourage you 
to take a hard look at that, because that would be a meaningful 
step that could help, again, ensure that the background checks 
that should be completed, even without additional legislation, 
are, in fact, completed. I hope you'll consider that seriously.
    And I yield back, Mr. Chairman. Thank you.
    Mr. Gowdy. The gentleman yields back.
    The Chair will now recognize himself.
    Madam Attorney General, I want to tell you I enjoyed 
visiting with you recently. And I want to thank you for DAG 
Sally Yates' recent trip to South Carolina, which was very 
well-received.
    There are three areas I want to cover with you. First would 
be Mr. Kadzik's letter to Congress recently. And I'm going to 
paraphrase one of the paragraphs, but it's a pretty close 
paraphrase: The IRS mishandled tax-exempt applications in a 
manner that disproportionately impacted conservative groups.
    I read that to mean that he found a discriminatory effect. 
In other words, there were similarly situated people, but there 
was a disparate impact on conservative groups. That's, I think, 
the only way to read that paragraph in Mr. Kadzik's letter.
    He then wrote, ``It left the appearance that the IRS 
conduct was motivated by political, discriminatory, corrupt, or 
other inappropriate motives.''
    So have you a discriminatory effect, but he said the cause, 
the motive was mismanagement, as opposed to a crime. And then 
that got me thinking, if my sheriff stops only red cars for 
speeding, at what point is it not mismanagement but it actually 
is circumstantial evidence of intent?
    Attorney General Lynch. Well, with respect to the actions 
that you refer to, Congressman, I think you certainly are 
accurate when you indicate that our letter noted that the 
groups that had complained were treated differently from other 
groups. And they were also treated in a way that did not 
advance their applications; they were treated badly. So one can 
understand their concerns and the issues that they raised.
    With respect to the investigation, as we outline in our 
letter, under the relevant statutes that we were reviewing, we 
needed to find evidence of criminal intent. That intent was not 
there.
    With respect to the example that you raise, certainly there 
are certain statutes that take into effect a discriminatory 
impact. But, again, even in our civil rights laws, if one had a 
discriminatory impact, you would not necessarily be able to 
prove a discriminatory intent.
    Mr. Gowdy. It's really hard to prove intent, really hard, 
which is why usually you use circumstantial evidence. And if 
female voters were required to show two forms of ID but male 
voters were only required to show one, how many voters would 
have to pass through the prompter before you would say that's 
circumstantial evidence of an intent to discriminate?
    I mean, never do you have direct evidence of intent. It's 
really hard to prove intent, which is why we typically use 
circumstantial evidence.
    And I noted, in Mr. Kadzik's letter, he didn't say there 
was insufficient evidence; he said there was no evidence. Would 
you agree with me that there's a very big difference between 
saying insufficient evidence and absolutely no evidence, which 
is what he wrote? He found no evidence of any intent to 
discriminate despite the fact that there's a discriminatory 
effect.
    Attorney General Lynch. Well, I think the letter does speak 
for itself in that regard.
    What I would say is that, Congressman, as a general matter 
in how we handle our criminal investigations, we do look for 
evidence of intent. And it comes in a number of ways--some 
circumstantial, some direct. Every case is different. In every 
investigation, as in this investigation, we gather all the 
evidence, we gather all the facts, and we apply the law to 
those facts and let that determine the answer.
    Mr. Gowdy. I'm with you, Madam Attorney General, but you 
concede the discriminatory effect. So that's half of what you 
have to prove, and it's already there. You concede that.
    And we've got e-mails from Ms. Lerner that we need a plan 
but we have to be cautious that it's not per se a political 
project. I think a jury would find that to be an interesting e-
mail.
    She worried mightily that Republican control of the Senate 
might be tantamount to a Republican President, and she wasn't 
thrilled about that. That would be circumstantial evidence of a 
political motivation.
    She referred to the Tea Party as very dangerous.
    I mean, how many pieces of circumstantial evidence--keeping 
in mind the author of the letter didn't say ``insufficient.'' I 
could have lived with it if you'd said, ``Look, our prosecutors 
just couldn't make the case. It's a close call. It's a jump 
ball. We couldn't make the case.'' That's not what he said. He 
said there's no evidence.
    I just cited three e-mails that I think would be evidence 
of some intent. Don't you think?
    Attorney General Lynch. Well, Congressman, as I said, I 
think the letter in its full entirety speaks for itself and 
does outline not only all of the issues that you raise but the 
host of other things that were reviewed and looked at in the 
course of the investigation and does explain the conclusions to 
which the Department came.
    With respect to the referral, the issue was whether or not 
there was evidence of a criminal intent. That is to say, did 
one act on certain views? Was that the reason for the actions? 
And as we've noted in our letter, and as we've offered to have 
in further briefings with you, we did not find evidence of that 
through the million pages of documents and hundreds of 
witnesses that were interviewed.
    Mr. Gowdy. I would love to take you up on that offer for a 
private debriefing, because I need somebody to explain to me 
the difference between specific intent and general intent. 
Because, as I read her e-mails, even some of the mediocre 
prosecutors on this panel, I think, could get to a jury, given 
the evidence that they have.
    I want to touch on two other issues and then--because 
there's a trend of going over.
    I would invite you at some point--and this is going to be a 
bipartisan comment, because this goes back to 2004, and in 2004 
there was a Republican administration.If you look at the 
firearms prosecutions from 2004 to 2012, you're going to be 
shocked at how few prosecutions there were, not for 924(c), not 
for firearms offenses that happened during a crime of violence, 
but I mean lying and buying, selling a gun to somebody who's 
been adjudicated mentally ill, somebody who's been committed. 
There were 22 guilty adjudications over the course of 9 years 
for people possessing firearms who were users or addicts of 
drugs--22 in 9 years.
    So when I hear my friend from Florida talk about the need 
for more gun laws, yes, we're going to say, how are you doing 
with the ones you currently have?
    And I would invite your attention to this chart, which came 
from--former Attorney General Holder provided it to us. I think 
you're going to be shocked at how few--and I get that there's 
not much jury appeal. Trust me, I get that it is hard to go in 
front of a jury in a lying-and-buying case. But you noted 
earlier the focus on firearms cases in the context of violent 
crime. And I think we would all agree the objective is to 
prevent the violent crime, not to do a really good job 
prosecuting it afterward, but to keep it from happening in the 
first place, which is why I would invite your attention to 
this.
    My last point is simply this: You have been asked 
repeatedly this morning to comment on ongoing investigations, 
and you always give the same answer. And it's the exact same 
answer that Marino gave me in the back, who's a former U.S. 
attorney, and it's the exact same answer Mr. Ratcliffe gave me 
in the back, who's a former U.S. attorney, which is you can 
neither confirm nor deny the existence of an ongoing 
investigation. And if we happen to know about one, you're not 
going to comment on it. That's exactly what you should say. I'm 
just wondering why the President didn't get that memo.
    And you may in your well of souls believe that it does not 
impact Director Comey or you, and it may not. But I promise you 
it impacts the perception of my fellow citizens when the person 
who is responsible for executing the laws in this country 
prejudges the outcome of investigations. It may not impact the 
reality; I promise you it impacts the perception. And that's 
equally dangerous.
    And, with that, I would recognize the gentleman from 
Illinois, Mr. Gutierrez.
    Mr. Gutierrez. Thank you very much, Mr. Chairman.
    And welcome, Attorney General.
    Attorney General Lynch. Thank you, sir.
    Mr. Gutierrez. I posed the same questions to the FBI 
Director. I want your advice, and I'd like to work with you.
    In my hometown of Chicago, there are 40, 50 shootings any 
given weekend. That is a whole classroom of children, and it's 
unacceptable. And we need more Federal action, I think, because 
whatever we do in Chicago, according to a city report from the 
mayor's office and the Chicago Police Department, 60 percent of 
the guns are coming from Wisconsin, Indiana, and Mississippi--
all States that have weaker gun laws than the city of Chicago 
does.
    We know this thanks to the Chicago Police Department's 
tracking of trace data, meaning that the Chicago Police 
Department traces every single gun it recovers to determine 
where it was originally sold and how it may have entered the 
illegal market.
    So, given that the majority party in Congress refuses to 
take up, despite widespread and robust support, gun control 
legislation, a couple of questions: What's your advice to me, 
as an individual Member of Congress who supports gun control, 
and how can I help curb gun violence in Chicago?
    And, second, will the Justice Department encourage the 
police departments everywhere in the Nation to collect trace 
data on illegal gun trafficking like we do in Chicago?
    So, first, you're in Chicago, you're a Member of Congress; 
what's your advice? And, second, trace the guns. We're doing it 
in Chicago. What do you think about across the Nation?
    Attorney General Lynch. Well, Congressman, thank you for 
the question.
    You certainly raise an area of concern and priority for the 
Department of Justice, which is, of course, violence, be it gun 
violence or any type of violence, in our cities, as it affects 
our children, not only those who are the actual victims, but 
children who are exposed to violence, of course, suffer 
greatly, as we know, in their later development as well.
    We feel that the city of Chicago is certainly taking a 
concerted look at this problem. And I'm extremely proud to note 
that the Federal Government, through the U.S. Attorney's Office 
in Chicago, is working very closely with local law enforcement 
on this issue, focusing on the issue of not just firearms but 
also the gang violence in Chicago as well.
    We also have a very strong presence with our Federal 
agencies, FBI as well as ATF, who works closely with the 
Chicago Police Department on the eTrace program that you 
mentioned. We do find it to be a very useful program. We do 
find it to be something that arms us with the data to trace the 
source of weapons into neighborhoods who suffer so grievously 
from them. And, certainly, it's an example that certainly we 
would hope could be exported to other cities, as well, as you 
have noted.
    And I can tell you that we are committed to continuing to 
work with the city of Chicago and all of our major cities in 
violence reduction programs. In fact, Chicago was represented 
at the Violence Reduction Summit that I held just last month 
with the mayor and the police chief. And we had a very robust 
discussion about the causes of violence, some of the ways in 
which the Department could be helpful in very targeted ways, 
whether it is increasing our task force presence, whether it is 
focusing on dangerous fugitives in the area, whether it is 
focusing on violence prevention efforts as well.
    So we remain committed to working not just with Chicago but 
all of our cities who are experiencing these troubling issues.
    Mr. Gutierrez. So if you were to suffer something as 
egregious as a demotion to a Member of Congress from your high 
position as Attorney General, what do you think? What would you 
do? You're back in Chicago, you got demoted, you're not the 
Attorney General, you're just one of us 435.
    Attorney General Lynch. Well, I certainly would not call 
that a demotion. I think all of us in public service have a 
great opportunity to----
    Mr. Gutierrez. You get my point. What would you do?
    Attorney General Lynch [continuing]. To serve our people.
    And, certainly, I think that within this body there's a lot 
of significant discussion going on. Obviously, the resources to 
fund the programs that we have on the ground are essential and 
funding the Department's budget that focuses on the Smart on 
Crime initiative, which does focus on violence reduction as 
well as reentry and recidivism. Because, of course, a grave 
concern is, as people return home to their communities, that 
they not return to violence, as well.
    So, certainly, the resources that would be useful for the 
Department's overall budget. And, particularly, when it comes 
to firearms, the resources for ATF----
    Mr. Gutierrez. Okay.
    Attorney General Lynch [continuing]. To continue its 
vigorous enforcement of the firearms laws and the eTrace 
program would be very beneficial.
    Mr. Gutierrez. Lastly, I want to--so there's a letter from 
my colleagues Congressman Ruben Gallego and Robin Kelly from 
Chicago. And they've asked to meet with you with a group of 
Members of the Congressional Hispanic Caucus and Black Caucus.
    And I want to put it in some context for all the Members 
and why we would invite you to meet particularly with that 
group. Because African-Americans are 13 percent of the 
population, but they constitute over half of all the 
homicides--over half. So 13 percent; 55 percent of all the 
deaths, given firearms.
    And, interesting, Latinos are relatively less likely to own 
a firearm than the general population, and yet, again, they 
disproportionately die due to gun violence. So you have a 
population that doesn't own guns but dies of guns. And 13-
percent black population, and over half of the deaths.
    I hope you got the letter. And I love working with those 
two colleagues of mine. And I was wondering if you would accept 
an invitation to come and meet with us.
    Attorney General Lynch. I look forward to meeting with the 
caucus. Thank you so much.
    Mr. Gutierrez. Thank you very much, Attorney General.
    Mr. Gowdy. The gentleman yields back.
    The Chair will now recognize the gentleman from Utah, Mr. 
Chaffetz.
    Mr. Chaffetz. I thank the Chairman.
    And I thank you for being here.
    The Inspector General Act, which is currently on the books, 
says that inspectors general, in carrying out their provisions 
under the act, are authorized ``to have access to all records, 
reports, audits, reviews, documents, papers, recommendations, 
and other material available to the applicable establishment 
which relate to programs and operations with respect to which 
the inspector general has responsibilities under the Act.''
    Somehow, the Office of Legal Counsel indicated on July 20 
that, despite longstanding tradition within the FBI, 
specifically, the Department of Justice Inspector General is no 
longer allowed access to grand jury testimony, wiretap 
information, credit information.
    We disagree with that conclusion, but, at this point, we 
have worked with the inspector general, worked with this 
Committee, and we're still waiting for full input from the 
Department of Justice to try to rectify this.
    I was hoping that I'd get some commitment from you to work 
with us and spend time with us on the proposed piece of 
legislation. I think the current law is sufficient, but you 
don't, and we're trying to come up with something that would 
rectify this.
    Would you be willing, as somebody from the Department of 
Justice, to give us guidance and input on this?
    Attorney General Lynch. Thank you, Congressman.
    I think that you certainly raise the important issue of the 
important work of all agencies' inspectors general, in 
particular the Department of Justice----
    Mr. Chaffetz. I just want to get a commitment that you'll 
work with us on this proposed piece.
    Attorney General Lynch. We have sent legislation up, we 
feel, that would clarify it and, in fact, ensure that the 
inspector general would receive all the information he needed 
and we'd be happy to meet with you.
    Mr. Chaffetz. Would you meet with us, not you specifically, 
somebody within the Department of Justice, to give input on the 
piece of legislation that I'm drafting in a bipartisan way with 
Mr. Cummings to try to resolve this?
    Attorney General Lynch. We're happy to meet with you.
    Mr. Chaffetz. Okay. And hopefully soon? Soon, I hope?
    Attorney General Lynch. I will have my staff reach out to 
yours. We're happy to meet with you and work with you on that 
issue.
    Mr. Chaffetz. Thank you.
    I've also had great concern on geolocation. In July, the 
Oversight Committee, we sent a letter seeking the so-called 
Jones memos. This relates to a Supreme Court case from a number 
of years ago.
    On October 26, I did a bipartisan, bicameral letter, six 
Representatives, five Senators, including the Ranking Member 
from both Judiciary Committees in the House and the Senate, 
calling on the Department of Justice to share with the Congress 
these letters. I still don't understand why you won't share 
this information with us.
    Attorney General Lynch. Well, certainly, with respect to 
the requests that you refer to, to the extent that it refers to 
the internal deliberative process of the Department, we 
typically do not provide those specific memos.
    However, we certainly do look forward to working with you 
to share the information.
    Mr. Chaffetz. You don't think that the House Judiciary 
Committee and the Senate Judiciary Committee should understand 
your approach in tracking people through geolocation?
    Attorney General Lynch. We certainly are willing to sit and 
work with you to convey what we can and as much as we can about 
why we----
    Mr. Chaffetz. That's a huge step forward, because thus far 
the Department of Justice has not been willing to share with us 
any information or have such a meeting. So I look forward to 
that meeting.
    I need to ask one more topic. I'm trying to go quick just 
because of the time.
    Share with me your thoughts and perspective on subpoenas. 
You know, subpoenas are often issued from a variety of 
different places, but Congress also issues subpoenas. Do you 
feel a duty and obligation to help enforce those subpoenas, as 
well?
    Attorney General Lynch. Certainly, that's part of the 
obligation of the Department of Justice in terms of its general 
law enforcement obligations.
    Mr. Chaffetz. When would you not enforce a subpoena?
    Attorney General Lynch. You know, I would have to know more 
specific facts and context to provide an answer as to whether 
or not we would not be able to for some reason or whether there 
would be a reason not to. I would have to have more 
information.
    Mr. Chaffetz. Do you feel a duty and an obligation to 
enforce, then, a congressionally issued subpoena?
    Attorney General Lynch. Certainly, with respect to a 
subpoena issued by any body, be it Congress or be it a court, 
the decision as to whether to enforce it or not would be one 
that we would review and determine the best course of action to 
take. But I would certainly like to have more facts about the 
specific issue, if I could.
    Mr. Gowdy. I think what the gentleman is asking is, if a 
subpoena goes out and someone does not comply with the 
subpoena, how do you view the Department's obligations to 
enforce compliance?
    A subpoena is only as good as your ability to enforce 
compliance. And we don't have access to a police force, which 
is a good thing. So we're relying upon you to enforce them.
    And I take the gentleman's question to be, how do you view 
your obligation to back up this branch of government when it 
needs access to documents or witnesses?
    Attorney General Lynch. Again, Mr. Chairman, I certainly--
with respect to a subpoena from this body or any other that 
would come to the Department of Justice for enforcement, we 
would review all of the information about that.
    Certainly, in my career as a prosecutor and as a U.S. 
attorney, I have had occasion to issue subpoenas and then work 
on alternate means of compliance, both as a prosecutor and as a 
private attorney. So there are a number of ways in which we can 
obtain compliance, and I would certainly need to know more of 
the factual predicate before I could provide you with any 
specific guidance.
    Mr. Gowdy. Yes, ma'am.
    The gentleman yields back.
    The Chair will now recognize the gentlelady from 
California, Ms. Bass.
    Ms. Bass. Thank you, Mr. Chair.
    And thank you, Attorney General Lynch, for your time today 
and also for your patience.
    It seems as though many people on the Committee would like 
to have some of your time.
    Attorney General Lynch. That's quite all right.
    Ms. Bass. And I listened to my colleague a minute ago, as 
well as my colleague Gutierrez, and he mentioned the letter. 
There's a letter, also, that I sent to your staff requesting a 
meeting with you. And perhaps what we could do is just join 
forces, because I didn't realize there were multiple letters.
    Because the concern is really the increase in homicides in 
a number of cities and specifically the desire to sit down with 
you personally, as well as members of your staff, to look at 
various programs that the agency has that might be allocated in 
more of an emergency fashion, considering there has been a 
spike in specific cities.
    So I would definitely like to continue following up. And, 
perhaps, if by the middle of next month we could have the 
meeting, it would be very good, since we've been asking for a 
while.
    I wanted to know if you would tell us about some of the 
programs from a more global perspective. For example, the 
Federal-local partnership like B-FED, which I believe is the 
partnership between the Federal law enforcement and local 
police in Baltimore. If you could talk about how those efforts 
are helping to address a spike in Baltimore.
    As well as you mentioned your summit, the summit that you 
had in Detroit. And I wanted to know if you could perhaps share 
some of the lessons from that summit in terms of how cities are 
able to address the spike.
    And then, after that, I want to ask you a question about 
sex trafficking.
    Attorney General Lynch. Thank you for those questions on 
topics of great importance to me as Attorney General, to the 
Department of Justice, and to the American people.
    With respect to the violent crime issues that we're facing, 
while, as we have noted, for a number of months and even the 
last year or so we're fortunate in that crime in general is 
down across the country and in all of our major cities crime 
generally is down, but we have neighborhoods where there is a 
persistent issue of violence. And we have neighborhoods where 
we either have not seen similar decreases or we have seen 
increases in violent crime.
    In my former role as U.S. attorney in Brooklyn, I had many 
of those neighborhoods within my district, so I dealt with 
those on a daily basis. And I know the importance of a 
partnership in terms of dealing with that issue.
    Baltimore is an excellent example of some of the resources 
the Federal Government is looking to bring to bear to deal with 
specific situations. We've partnered with the police department 
in Baltimore to provide an influx of Federal agents, focusing 
on the violent crime problem, to aid with the investigation and 
literally making those cases so that we can remove the violent 
offenders from the streets of Baltimore and allow the citizens 
to continue to flourish in that great city.
    With respect to the summit that I had, because we were 
looking at this issue from a host of perspectives, actually, 
this summer, I asked my United States attorneys in cities that 
had seen an increase in violence in some neighborhoods to meet 
directly with their local partners and counterparts--district 
attorneys, police officers, sheriffs--and discuss the nature of 
the crime increase and try and focus on the reasons, to the 
extent that they could be gleaned from those discussions, for 
those increases.
    We were able to essentially accumulate a great body of 
information there. And, as one can imagine, the reasons for 
crime differ depending upon the neighborhood.
    Ms. Bass. Sure.
    Attorney General Lynch. With that, we built on that and 
convened our Violent Crime Summit in October, where we had 
mayors and police chiefs and U.S. attorneys from those cities 
here in Washington speaking together, sharing best practices 
for crime reduction.
    Ms. Bass. Great.
    If there are--and I want to get to my last point and would 
ask the Chair's patience with this. Perhaps we could get the 
information from that summit that happened in October. If we 
could get those proceedings, it would be very helpful.
    Finally, I wanted to ask you about sex trafficking, which I 
know is a high priority with you. And I wanted to know if you 
could mention any specific collaboration that is taking place 
with the Department of Health and Human Services, in 
particular, because we know that a percentage of the girls 
involved in trafficking are in the foster care system.
    So the question is, is there collaboration between DOJ and 
DHHS, and can you speak to that?
    Attorney General Lynch. Yes, certainly. We have a number of 
collaborations across different agencies. I cannot recall the 
specific ones with HHS, but I would certainly like to provide 
you with that information.
    We also are working with the Department of Labor, and we're 
working with State and local law enforcement in many ways to 
not only improve enforcement but to provide services for the 
survivors. The services range from housing services to 
treatment to therapy and the like.
    Ms. Bass. Okay. And I will follow up with you. 
Specifically, getting these girls back into the foster care 
system is really critical. So I'll specifically look for that 
collaboration.
    Thank you, Mr. Chair.
    Mr. Gowdy. Yes, ma'am.
    The gentlelady yields back.
    Madam Attorney General, you've been sitting there for 3 
hours. Votes are coming, which will provide a break. But I am 
happy to break now, given the fact that you've been sitting 
there 3 hours, if you would like 5 minutes, or we can march on 
until they call votes. It is totally up to you.
    Attorney General Lynch. I would appreciate 5 minutes if 
that's possible.
    Mr. Gowdy. Done.
    Attorney General Lynch. Thank you, sir.
    [Recess.]
    Mr. Collins [presiding]. The Committee will come to order. 
Welcome back. Thank you for the break and allowing us to go 
vote. And at this time we will continue questions, and the 
Chair recognizes Ms. Walters from California.
    Ms. Walters. Thank you, Mr. Chairman.
    Attorney General Lynch, last year I followed the various 
scandals that plagued the Department of Veterans Affairs. And 
like many Americans, I was appalled at the manipulation of 
patient wait times at numerous VA facilities. Our veterans 
risked life and limb to serve this Nation and the VA failed 
them.
    FBI Director James Comey confirmed on June 11, 2014, that 
the FBI was investigating criminal allegations, and this was 
within the Veterans Affairs related to the manipulation of 
patient wait times. Can you provide to us the status of an 
update regarding the investigation?
    Attorney General Lynch. Thank you for the question. I 
certainly share your concern in regard for our Nation's 
veterans, having several of them in my own family.
    With respect to that matter, I'm not able to provide you an 
update at this time. I would like to have my staff reach out to 
you after we see what information we'd be able to provide to 
your office.
    Ms. Walters. Okay. Are there any cases in which the 
Department of Justice has decided to pursue charges against VA 
employees for manipulating wait times? And if not, why not?
    Attorney General Lynch. I'm not aware at this point in time 
of the status of that matter. So, again, I would not be able to 
give you that information.
    What I can say, Congresswoman, not to delay the time, is 
that certainly the service of our veterans is of great 
importance to us and we support them in a number of ways, not 
just through the investigation that you referred to, but 
through our Servicemembers Initiative act and our work 
protecting their right to vote overseas, as well as our 
implementation of services such as veterans courts and working 
with local municipalities to alleviate homelessness in 
veterans. All of these things, all of these issues plague our 
veterans and are something that we as a Nation need to be 
engaged in.
    Ms. Walters. Do you happen to know how many VA medical 
facilities are under active investigation for manipulating wait 
times?
    Attorney General Lynch. I'm not able to give you that 
information at this time.
    Ms. Walters. Okay. And you wouldn't know when the 
investigations are planned to be concluded?
    Attorney General Lynch. No, but I certainly would 
appreciate the chance to get back to you with that.
    Ms. Walters. Okay. Just a couple more questions. How many 
cases has the DOJ declined to prosecute or press charges 
against the VA employees for manipulating wait times?
    Attorney General Lynch. I'm not able to give you that 
information.
    Ms. Walters. Okay. Okay, thank you.
    Mr. Collins. The gentlelady yields?
    Ms. Walters. I yield back.
    Mr. Collins. The gentlelady yields back.
    The Chair now recognizes Mr. Richmond.
    Mr. Richmond. Thank you for coming and thank you for 
enduring several hours of testimony, so I will try to be very 
brief.
    What I wanted to do in the beginning, Mr. Chairman, is ask 
unanimous consent to enter into the record a report from The 
Clemency Report which talks about 25 women deserving of 
clemency. Of interest to me would be of course Sharanda Jones 
and Danielle Metz. And I'd like to give it to you so that--a 
copy to you so that we can talk about it in the future. But 
there are cases where----
    Mr. Collins. Without objection, it will be entered into the 
record.*
---------------------------------------------------------------------------
    *Note: The material submitted by Mr. Richmond is not printed in 
this hearing record but is on file with the Subcommittee and can be 
accessed at:

      http://docs.house.gov/Committee/Calendar/
      ByEvent.aspx?EventID=104114.
    Mr. Richmond. Thank you. There are cases where women were 
sentenced to either natural life in jail or a really large 
number of years when they were not the actual kingpin, they 
were just either following their boyfriend or other things. And 
I really would like the Department to do something on that as 
we talk about criminal justice reform and move forward.
    I represent the Second Congressional District of Louisiana, 
which is New Orleans, and we're under a very unique situation 
in which we have a consent decree for both our police 
department and our sheriff's department. And the cost of the 
implementation of those consent decrees are a large part of our 
city budget. And in an effort to make the police department 
more constitutional and the jail more constitutional, which are 
both laudable goals, we are sacrificing city services that 
would keep people from having to deal with the police or the 
sheriff's department. So it is almost we're doing something on 
our left hand to help, but we're depleting all of our resources 
on the right, so it's not helping. And we now have an increase 
in police response time that is almost an hour when you call 
911.
    So the question is, as you all decide Byrne grants and 
others and look at consent decrees, when you have a unique 
instance where you have more than one consent decree in a small 
jurisdiction, can you all help to provide resources so that we 
can, one, comply with the consent decree, but two, not lose 
critical services for our youth and our public to keep them 
safe at the same time?
    Attorney General Lynch. Well, Congressman, I appreciate the 
question. Certainly our practice of being involved with local 
law enforcement jurisdictions in a host of areas, not just 
consent decrees but collaborative reform and technical 
assistance, is an important way in which we provide assistance 
to our colleagues there.
    With respect to the New Orleans situation, again, I think 
every municipality does see these as a financial challenge and 
we certainly understand that. We view it as an investment in 
the future of constitutional policing and constitutional jails.
    When a jurisdiction is involved with a consent decree they 
still are able to apply for grants and other programs and 
other--from other portions of the Department or any other 
agency. So it would not preclude the kind of assistance that 
you are talking about. And certainly I'm happy to have someone 
from our grantmaking arm reach out to your staff and talk about 
options there.
    Mr. Richmond. Well, I would just say that because it's 
taking up such a disproportionate and large part of our city 
budget, we're having to raise taxes and we're having to cut 
services such as youth recreation and other things that would 
keep kids out of trouble in the first place. So we don't want 
to overstress constitutionality and then at the same time take 
opportunity away from kids. So to the extent that you all can 
help, whether it's grants or other things, we'd appreciate it.
    Another thing is Attorney General Holder and Secretary 
Duncan sent out an advisory on the school-to-prison pipeline. 
And I would just hope that that's something that you all are 
going to follow up with. We had a bill, but it seems like 
school districts are still not getting the word that police are 
not the answer to a school discipline problem. So what are you 
all doing in that effort?
    Attorney General Lynch. With respect to the school-to-
prison pipeline, it is still a very important focus of the 
Department's civil rights efforts. We provide guidance to 
school districts and law enforcement organizations. We actually 
have a number of cases that were brought approximately 2, 2-1/2 
years ago by the Civil Rights Division challenging school 
districts' disciplinary policies. And we are trying to provide 
assistance to reduce the zero-tolerance policies that tend to 
be the start of this problem.
    That, in conjunction with providing appropriate training to 
law enforcement officers should schools choose to have school 
resource officers, is a way in which we hope will be helpful to 
every school district in dealing with these issues. Obviously, 
school districts have to have discipline. But just as 
obviously, the education and the future of the children really 
is the first priority.
    Mr. Richmond. Two things as I close. One is to stress the 
importance of the COPS program and additional funding for 
community policing and other initiatives that would help.
    The second two are requests. One would be to urge you to 
continue to work with the different district courts to push 
specialty courts, whether it's drug courts or reentry courts or 
other things that could help, would be very, very important.
    And the other one is a request. Can your office get to me 
the statistics on the adjudicated deferral of convictions, the 
diversion program, how many people get accepted and what those 
demographics look like? Because I am very concerned that 
diversion programs are usually used for those who have means 
and those who have some sort of political connections or 
community connections, and that people who really need it don't 
get the benefit of the doubt to get accepted in it. So if I 
could get a year or 2 worth of data on diversion programs, 
who's admitted and what those demographics look like, who's 
rejected and what those demographics look like, I'd appreciate 
it.
    Mr. Collins. The gentleman's time has expired, but it's a 
good question. If our witness would like to answer or provide 
the information requested.
    Attorney General Lynch. I look forward to providing you 
information on those points. With respect to diversion courts, 
because they are often run by the court system and not by the 
relevant U.S. Attorney's Offices, we would look for ways to get 
you information from the Office of Court Administration also. 
But certainly we do have a wealth of information on the success 
of those programs.
    Mr. Richmond. Thank you.
    Mr. Collins. The Chair now recognizes myself for questions.
    On September 28, 2015, the VA Office of Inspector General 
report recommended the U.S. Attorney's Office, District of 
Columbia, pursue criminal charges against two VA executives it 
found to have abused their position in order to take jobs with 
less responsibility while keeping higher salaries. The report 
detailed how the VA executives pressured subordinates to accept 
positions transfers only to volunteer for the vacated jobs 
while keeping their original salaries and having the VA pay 
them for more than $400,000 in taxpayer-funded relocation 
benefits. Will the DOJ pursue charges against these employees? 
And if not, why not? 
    Attorney General Lynch. Thank you for the question, Mr. 
Chairman.
    With respect to a matter that's been recently referred to 
the Department, it's a matter that is currently under review, 
and so I'm not able to comment on it at this time.
    Mr. Collins. Well, I think one of the issues, and I think 
the gentlelady from California also talked about this as well, 
the VA issue is something that has been ongoing. And I think 
you made a rightful statement that our veterans deserve that 
support and help. And I think we're seeing vast--we've seen it 
in Georgia, where people are just transferred, not held 
accountable. There are some that have been held accountable.
    I think coming to this conclusion it is more than just 
words. Actions have to be taken here. And to simply say we're 
going to look into this and look into this is, frankly, the 
American people on both sides of the aisle are not satisfied 
with that kind of a response.
    I do appreciate your mention of veterans courts. Veterans 
courts are working in my home county in Georgia and we are 
expanding that process. Governor Deal, as well as local DAs and 
judicial circuits have worked well in that regard. So I would 
commend that and continue the process as we look forward.
    I want to move to an area that is coming up a little bit in 
some trade secrets issues. And we recognize that trade secrets 
is an additional form of intellectual property. And companies 
in America, however, are increasingly targets of sophisticated 
efforts to steal proprietary information, harming our global 
competitiveness. There are many in Congress, including myself, 
who believe we need to create a Federal civil remedy for the 
misappropriation of trade secrets, keeping and harmonizing the 
legal framework so that companies can protect.
    The Administration throughout that recommendation supported 
a call for private right on action on trade secrets. Do you 
join them in recognizing that such a private right of action 
would be beneficial?
    Attorney General Lynch. Certainly, Congressman, you have 
raised an important issue and one of great priority to both me 
and the entire Department of Justice. We are committed to 
prosecuting cyber criminals who do seek to steal our 
intellectual property. I believe the last recent estimate was 
that we are losing possibly up to $250 billion worth of 
intellectual property a year through hacks and crimes and the 
likes. And we look forward to working with you on the proposed 
legislation that you mention that you discussed.
    Mr. Collins. So you do believe a civil--a private right of 
action would complement your efforts, given the resources and 
limited actions many times that you have, that would be 
something that would complement the actions that you 
currently----
    Attorney General Lynch. I'd like to see the language, but 
certainly we look forward to working with you on that.
    Mr. Collins. Okay. Also, I want to--and we're jumping to 
several different issues, and one I want to come back to that 
was brought up earlier and it has to do with sanctuary cities. 
And it goes back to a question. I want to know, has DOJ taken 
any action to withhold law enforcement grants or other funding 
to sanctuary jurisdictions? If not, why not?
    Attorney General Lynch. Well, the grant process under which 
DOJ operates is a formula-based grantmaking process and 
different organizations and entities within cities apply. 
Certainly with respect to our grantmaking process in general, 
we're always cognizant of concerns that come up within certain 
jurisdictions. We have found that through our grantmaking 
process we can effectuate great change in a host of very 
significant focused areas.
    Mr. Collins. But, Madam Attorney General, if you don't mind 
me interrupting you here, but shouldn't following the law be a 
prerequisite for a grant?
    Attorney General Lynch. Certainly we work to enforce not 
only the laws that you are referring to, but all the laws with 
the cities with whom we work.
    Mr. Collins. But getting a grant, if you're not following 
the law, have no intention of following the law, why should--I 
mean, at that point in time that application should be just set 
aside, follow the law, we'll talk to you about your grant. Why 
can't we get to that?
    Attorney General Lynch. Well, thank you for the question, 
Congressman. Certainly it's been raised in a number of 
contexts. We do find that our grants are very focused on 
specific areas. For example, providing more police officers on 
the ground, providing----
    Mr. Collins. Again, you've great talking points. I 
appreciate that. That's not my question. How can you get--if 
you're using money to circumvent the law, as you just basically 
implied, that's even worse. You don't incentivize this kind of 
behavior. Why would it just not be a permanent stop to the 
grantmaking process until a city or a municipality or a 
government entity complied with the law?
    Attorney General Lynch. Well, Congressman, with respect to 
our grantmaking process, we do make very discrete focused 
grants to specific portions of city government.
    Mr. Collins. So in essence you have subsidized lawless 
behavior. That's what the Attorney General of the United States 
of America has just testified to. And you can sit and--I mean, 
that's what you just testified to. You'll give money to a 
locality that is not following the law because you want to use 
your grant in discrete, private ways. Is that what you just 
said?
    Attorney General Lynch. We use our grants to incentivize 
better behavior in a host of ways. And our grantmaking policy 
is focused on a very rigorous application process that is fact-
based.
    Mr. Collins. So you're telling the people of the Ninth 
District of Georgia that taxpayer dollars that come to them is 
being used and will not even be considered if a locality is not 
complying with the law, you will still give their tax dollars 
to a locality that is not complying with the law. Is that your 
testimony?
    Attorney General Lynch. We look at a host of factors----
    Mr. Collins. So the answer is yes----
    Attorney General Lynch. We look at a host of factors----
    Mr. Collins [continuing]. Not your host of factors, it is 
yes. I mean, this is a part--and the Ranking Member made a 
great point earlier when he first started. I want to finish up 
with this. I've had these hearings and you'll be back before us 
at another time and I look forward to those hearings.
    But what is amazing to me and the American people watching 
here is he said tell the truth and work those, but also being 
prepared for questions. You're going get VA questions here, 
you're going get sanctuary city questions here, you're going to 
get a lot of host of questions, and even the Ranking Member 
listed those off.
    Coming and giving an answer that we're looking for, that 
we're not being basically a setup where the people don't 
understand that is a thing that very much frustrates most 
people with Washington, D.C. You're been very well prepared for 
this by those who want to prepare you for these hearings. 
There's just a big disconnect at a certain point in time when 
the Attorney General of the United States will not say that 
they would not want to give money to an organization or to a 
locality that is not following the law, we're still going to 
give taxpayer money to that. That is unacceptable and what most 
people find abhorrent.
    And with that, I recognize the gentlelady from Washington, 
Ms. DelBene.
    Ms. DelBene. Thank you, Mr. Chair.
    Thank you, Attorney General, for being here with us today 
and for all of your time.
    As you are no doubt aware, in 2012 voters in my home State 
of Washington passed Initiative 502, which legalized the sale, 
consumption, and taxation of marijuana products. Including 
Washington, 23 States and the District of Columbia have 
legalized some form of marijuana, and in 2016 several more 
States are expected to consider marijuana legislation on ballot 
initiatives. Washington has already collected over $80 million 
in tax revenue from sales. And since the passage of Initiative 
502, court filings in Washington for low-level marijuana 
offenses have dropped by 98 percent, saving the State millions 
of dollars in enforcement and in judicial expenses.
    As you also may know, there are a wide variety of marijuana 
reform measures that have been introduced in Congress. And 
there is still the ongoing concerns about the conflict between 
State and Federal law in many areas, particularly in banking, 
for example, and they range from legalization to rescheduling.
    And a bill that I recently introduced, the SMART 
Enforcement Act, my bill would give you, the Attorney General, 
the authority to waive the Controlled Substances Act for States 
that are effectively regulating marijuana themselves, such as 
Washington State. So it authorizes a waiver from the Controlled 
Substances Act for States that meet requirements preventing the 
distribution of marijuana to minors, violence or use of 
firearms in cultivation and distribution of marijuana, and drug 
driving.
    And I want to thank your team for answering many questions 
that my office had as we were in the drafting process. I wanted 
to hear from you your thoughts on this type of legislation and 
this approach to reform and about how the enforcement 
priorities that were outlined in the Cole memo have been 
working.
    Attorney General Lynch. Thank you, Congresswoman, for the 
question. And we're happy to provide information and assistance 
as needed by your staff as you review this important issue.
    Certainly the factors that have been outlined in the Cole 
memo and that have been stressed in further discussions with 
the U.S. attorney community remain consistent. Our concerns are 
the areas that you mentioned. Where a State chooses to have a 
legalized marijuana structure, we will review that structure 
and look at that, but our concern is, frankly, marijuana 
getting into the hands of minors and also being trafficked out 
of State where a State may have not made the same choice.
    We also have grave concerns about the areas of the edible 
products that are so appealing to children and expose them to 
this product, which I don't believe is the goal of the regime 
that you're talking about, but is a concern of ours. We're also 
concerned as well about the violence that is still associated 
with the higher levels of the marijuana trafficking industry.
    And so at the Federal level we are focusing our resources 
on that type of enforcement action and we continue to do so. In 
my former office, we prosecuted cases involving importation of 
large amounts of marijuana, utilizing an Indian reservation on 
the Canadian border, and also utilizing organized crime 
connections.
    So we certainly still have a robust practice. Again, we 
focus limited Federal resources on those types of cases.
    Ms. DelBene. But we know that we have States like ours that 
have challenges, banking in particular, because they're still, 
even while there may not be active activity against States who 
have legalized, we still have situations where banks are not 
able to serve these types of businesses because of the conflict 
between State and Federal law.
    My legislation would allow you to issue waivers to States 
that meet and provide an effective regulatory regime, and these 
would be 3-year waivers so that you're able to give those 
States a waiver from the Controlled Substances Act and 
establish the requirements they were going to meet. Is that a 
type of legislation that you think would help address the 
issues that we have between Federal law and State law today?
    Attorney General Lynch. Well, we're certainly happy to 
review any proposal that you think would be helpful and to 
provide comment on that. I'd have to look further at that 
proposal before I could respond.
    Ms. DelBene. It's a bill we've introduced and we work to 
get feedback from your office too. So I'd welcome any feedback 
there.
    I also just wanted to ask quickly, you talked about 
creating a new cybersecurity unit within the Criminal Division, 
and I wanted to ask exactly what made you decide to do that and 
what are the goals of that particular new unit.
    Attorney General Lynch. That is within our Computer Crime 
unit. We have a Cybersecurity Unit focusing on computer 
intrusions, computer hacking, and the sophisticated types of 
computer activity that hackers, many of whom are based 
overseas, are using to infiltrate our computer systems.
    The types of activity that we are looking at involve not 
just the wholesale theft of private information, which can be 
so challenging at a very basic level of identity theft, but 
also the theft of personal information such as healthcare 
information, which raises significant privacy concerns, and 
also intellectual property.
    We find that private industry is being targeted, 
particularly our financial services are being targeted at an 
increasing level by cyber intruders who are seeking to 
essentially take advantage of American technology and ingenuity 
and siphon it overseas for production there without the benefit 
of the work that we put into it. As I indicated in response to 
Mr. Chairman's question, that recent estimates indicate that 
approximately up to $250 billion worth a year worth of our 
intellectual property is being lost to us through that.
    This is a grave concern, as all of us seek to make sure 
that our economy is as strong as possible, that we get the 
benefit of American ingenuity and American technology and that 
we protect what are protected secrets. Many of these, many of 
the matters that are being stolen are not only sensitive but 
very, very unique to particular industries and important to the 
growth of particular discrete industries. We felt that we 
needed to increase the resources to this because the problem is 
increasing.
    In addition, however, it is working very, very well. And 
one way in which it's working very well is through our 
connections to private industry. We, along with the FBI and the 
Secret Service, have made extensive contacts and discussions 
with private industry, general counsel, CEOs, CIOs, about 
cybersecurity and the need to share information about breaches 
when they occur.
    We are also ramping up within the Federal Government our 
own efforts to provide information to companies when we 
determine that they've been the subject of a breach or a hack. 
We are working to reduce our response time to get information 
to them as quickly as possible so they can also begin 
protecting their data and protecting their information. So it's 
been a very positive effort.
    Mr. Collins. The gentlelady's time has expired.
    Ms. DelBene. Thank you. I yield back.
    Mr. Collins. The gentlelady yields back. Thank you.
    The Chair now recognizes the gentleman from Florida, Mr. 
DeSantis.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Welcome, Madam Attorney General.
    When you were the U.S. attorney and you received inquiries 
about an ongoing investigation, how would you respond to those 
inquiries typically?
    Attorney General Lynch. Well, Mr. Congressman, thank you 
for the question. It is Department policy and certainly my own 
view as a career prosecutor, typically our response would be 
that we're not able to comment on an ongoing matter.
    Mr. DeSantis. And part of the reason for that is because if 
you're out making statements in the press that detract from the 
public's confidence that you're doing it by the facts if you're 
trying to prejudice the investigation. Is that fair to say?
    Attorney General Lynch. That is certainly one of the 
reasons, Congressman.
    Mr. DeSantis. Let me ask you this. When you were an AUSA, a 
line prosecutor, did you ever prosecute a case against someone 
with whom you had either a relationship on a personal or 
professional basis?
    Attorney General Lynch. Can you be more specific?
    Mr. DeSantis. Did you ever get assigned a case where the 
defendant was somebody that you knew either personally or 
professionally that had a private relationship?
    Attorney General Lynch. That did not occur in my 
experience.
    Mr. DeSantis. Would it have been appropriate, do you think, 
for you to have had a case if someone who, you know, maybe you 
worked with prior to taking the position as a prosecutor or 
would that case likely have been sent to a prosecutor who did 
not have that relationship?
    Attorney General Lynch. It depends entirely on the facts 
and circumstances of the case, what type of case it was, 
whether it involved an individual, an entity. Every case is 
looked at on its own merits.
    Mr. DeSantis. And so here is why I'm kind of asking these 
questions, because I delivered a letter, you probably haven't 
had a chance to read it yet, from a number of my colleagues, 
over 40 of us, requesting that you appoint a special counsel to 
look into the situation with former Secretary of State Hillary 
Clinton's e-mails. And the applicable regulations say that 
that's warranted if there's a conflict of interest for DOJ or 
there are other extraordinary circumstances and it would be in 
the public interest to appoint an outside special counsel.
    So here is why I think it makes sense. You were appointed 
to the U.S. attorney in 1999 by President Bill Clinton. And 
I've had a chance to meet a lot of people who have served as 
ambassadors, different. I've never met anybody who doesn't have 
esteem for the person that appointed them to high office. I 
mean, it's a tremendous honor.
    Your current boss who appointed you to your current job, 
President Obama, appointed you again to the U.S. Attorney's 
Office and now to your current job as the Attorney General and 
it's been said made statements saying that somehow there is no 
damage to national security. And then you have the presumptive 
Presidential nominee of your party is subject to this 
investigation.
    So to me that would meet any definition of extraordinary 
circumstances. I don't think we could probably find a similar 
fact pattern in American history where such an investigation 
was put up. So why not, so that the public has confidence that 
this is done in an apolitical manner, assign somebody who is 
trustworthy to serve as a special counsel and then this way, 
however the investigation goes out, the public's going to have 
much more confidence in the outcome?
    Attorney General Lynch. Well, Congressman, thank you for 
your letter. I look forward to reviewing it and will provide a 
response.
    Mr. DeSantis. But why not just--forget about the letter--
why aren't these extraordinary circumstances?
    Attorney General Lynch. Well, Congressman, I would never 
forget about your letter, first of all, and we will provide a 
response to that. Certainly, we'll review the issues that you 
raised and we'll provide you with a response.
    Mr. DeSantis. Do you think, though, that you as the 
Attorney General then having an investigation that concerns the 
spouse of somebody that's appointed you previously to a very 
important position, I mean, and it's not saying that somehow 
you're not going to try to do a good job, but it's just--it's 
human nature I think. And then the appearance of whether there 
is a conflict of interest at stake is something that I think a 
lot of people are concerned about. And I appreciate you're 
going to review the letter, but do you not see why that would 
cause people a little bit of pause?
    Attorney General Lynch. Congressman, we will review 
everything raised in your letter and provide you with a 
response.
    Mr. DeSantis. Okay. Well, we look forward to doing that and 
hopefully you will do that in a timely fashion. Your 
predecessor usually did not respond in a timely fashion.
    The vetting of the refugees. The testimony you gave is 
different from the testimony that we had from the FBI Director 
a couple weeks ago about our capacity to vet. And he, I think, 
said that you're getting better at it, but that you can't 
guarantee. I think you are confident that they'll be able to 
vet.
    Well, let me ask you this. Your Department brought 
terrorism charges against a number of Bosnian immigrants, some 
of whom--at least one of whom was a refugee. So if our vetting 
is good, what happened in that case involving the Bosnian who 
was indicted on material support for terrorism charges in 
February 2015?
    Attorney General Lynch. Well, I'd have to look at that 
specific case before I could provide you with an answer about 
that, Congressman. And of course if it were an ongoing case I 
wouldn't be comment about it. So, again, I'm not able to give 
you that answer at this time, and we'll see what information we 
can provide about that matter.
    As I indicated, we have a robust screening mechanism for 
refugees from all countries. It relies upon efforts of not just 
the FBI, but the Department of Homeland Security, Department of 
Defense, State Department. It uses interviews, it uses 
biometric data. It is, as I indicated earlier, a challenging 
process, as is everything we do in law enforcement. But that 
does not mean that we are not committed to doing everything 
that we can to make sure that the process is as robust as 
possible and that we do everything that we can to protect the 
American people.
    Mr. DeSantis. I think the concern, though, is that you can 
do everything right, but given the lack of data, the lack of 
information we have on people who are being pulled out of a 
very, very difficult circumstance, essentially an Islamic civil 
war, that you can do everything right and you could still have 
people come into the country who mean to do us harm. This 
Bosnian was able to get in in probably circumstances that it 
would have been easier to vet than with Syrians, and so I know 
a lot of us have concerns. But I appreciate your testimony.
    And I yield back.
    Mr. Collins. The gentleman yields back.
    The Chair now recognizes the gentleman from New York, Mr. 
Jeffries.
    Mr. Jeffries. I thank the Chairman.
    And I thank the Attorney General for your presence and your 
testimony here today and your leadership.
    One of my colleagues from Illinois mentioned earlier that 
in the city of Chicago approximately 60 percent of the 
instances of gun violence can be traced to weapons that were 
initially purchased in either the neighboring States of 
Wisconsin or Indiana, as well as, I believe, from Mississippi. 
It's also the case that many of the weapons that are used to 
commit crime in south-central Los Angeles can be traced 
initially to the neighboring State of Arizona.
    We've got a similar problem in New York in terms of the 
weapons that are used often to commit crime in the city, and in 
fact this has been illustrated. Recently we've experienced the 
deaths of four officers in the line of duty over the last 10 
months, Detective Ramos, Detective Liu, Brian Moore, and 
Randolph Holder. It was a very diverse group, sort of 
emblematic of the increased diversity of the New York City 
Police Department, one was African America, one was White, one 
was Asian, one was Latino. They all paid the ultimate price.
    One of the things that they had in common was that the 
weapons that were used to kill each of these offices came from 
outside of the State. Detective Ramos, Detective Liu were 
killed by a weapon that came from Georgia, Officer Moore a 
weapon that came from Georgia, Officer Holder a weapon that 
came from South Carolina.
    And so it seems that even as certain States see fit to 
tighten their gun violence prevention laws, because there is no 
national legislative effort, many States have been subjected to 
closing the front door, but guns being able to come into those 
States through the back door.
    And so my question is, do you think that the gun 
trafficking laws that currently exist on the books are adequate 
for the ATF, the FBI, the Department of Justice to do its job 
in combatting gun violence?
    Attorney General Lynch. Well, certainly, Congressman, the 
protection of the American people, particularly when it comes 
to gun violence, is one of our highest priorities, and we are 
committed to making every effort to carry out that goal and 
that responsibility. We look to vigorously enforce all the laws 
on the books. There are a number of cases I recall when I was 
still in Brooklyn that my colleague in the Brooklyn DA's office 
was able to essentially close down a firearm trafficking ring 
that was bringing guns, as you indicated, from Georgia to New 
York.
    So it is something that all levels of law enforcement take 
very seriously. We work closely with our State and local 
colleagues on this issue and we will continue to do so.
    Certainly should Congress consider additional legislation, 
we'd be happy to provide input and comment on that. That is 
certainly something that I think there is a debate about and I 
think all voices should be part of that debate.
    Mr. Jeffries. Has the Department of Justice taken a 
position, for instance, as to whether universal background 
checks or comprehensive background checks would be something 
that Congress should look do as it relates to tightening our 
gun violence prevention laws?
    Attorney General Lynch. Well, certainly I think as we've 
been asked that question we've provided information about cases 
and about trends that we have seen that we hope would be 
helpful to the analysis here in Congress on that. And if that 
were something that Congress were to consider we would work to 
implement that as well.
    Mr. Jeffries. It's my understanding that the Department of 
Justice is currently investigating whether the civil rights of 
Eric Garner were violated when he died as a result of a 
chokehold that was deployed in July of 2014 by an NYPD officer, 
Daniel Pantaleo. Is that correct?
    Attorney General Lynch. Yes. That tragic incident did occur 
in 2014 and it was on Staten Island, which is in my former 
district.
    Mr. Jeffries. And in December of 2014, I believe the 
Department of Justice publicly announced that it was 
considering whether civil rights prosecution would be 
appropriate. Is that correct?
    Attorney General Lynch. Yes. Essentially, as you may be 
aware, the Staten Island district attorney initially undertook 
an investigation and grand jury presentation. As is commonly 
our practice, we awaited the results of that investigation and 
after the conclusion of the State matter began our own Federal 
review, which is ongoing.
    Mr. Jeffries. Okay. And in the context of the Federal 
review that's ongoing, Eric Garner obviously has been killed. 
The individual who I think courageously recorded the incident 
is currently being prosecuted at the State level in a manner 
that many of us view as retaliatory. It remains to be seen. But 
the officer who deployed a chokehold that had been 
administratively prohibited by the NYPD for the previous 20 
years remains on the force on desk duty still receiving a 
salary.
    At any point did the Department of Justice communicate to 
the city of New York that it should refrain from proceeding 
with disciplinary action against this officer during the 
pendency of your investigation?
    Mr. Collins. The gentleman's time has expired, but the 
Attorney General can answer.
    Attorney General Lynch. Thank you, sir.
    Mr. Congressman, I am not able to get into the specifics of 
the discussions that we may or may not have had with the NYPD, 
except to say that it is common practice that during the 
pendency of the investigation officers are placed on a modified 
duty assignment consistent with the internal practices of the 
NYPD and that they still retain the right to take action. They 
often do await the results of a Federal investigation also. 
That has been my experience in the past with the cases that I 
have personally prosecuted and seen prosecuted.
    Mr. Collins. The gentleman's time has expired.
    The Chair now recognizes the gentleman from Michigan, Mr. 
Bishop.
    Mr. Bishop. Well, thank you, Mr. Chair.
    And thank you, Madam Attorney General, for being here today 
and for your patience in sitting through this long testimony.
    The primary function of any prosecutor is to enforce the 
law and the Constitution and to ensure justice. And as I 
listened to some of the questions, and this can be applied in 
several different areas that we've been discussing today, the 
Chairman took you down the path of talking to you about 
sanctuary cities. And to me the idea of sanctuary cities is 
really antithetical to what prosecutors believe and that is 
justice, because it is the selective application of laws.
    And I'm wondering what your opinion is of sanctuary cities 
given all that's been happening in this country. We have cities 
that have decided to enforce their own brand of law, to ignore 
law. We have constituents that we represent that don't 
understand that and Members that do not understand how we can 
have a law enforcement community that does not enforce the law. 
It just is inexplicable.
    I think it's important that we have some clarity to this 
answer, but Federal law prohibits, specifically section 642 of 
the Illegal Immigration Reform and Immigrant Responsibility Act 
of 1996, any State or local government from prohibiting their 
officials from communicating with DHS information regarding the 
immigration status of any purpose. Yet, it happens.
    And I'm just wondering, your predecessor didn't address 
this issue, I'm wondering if you can address it and if you can 
give the American people some clarity as to why sanctuary 
cities are still allowed to exist in this country.
    Attorney General Lynch. Well, Congressman, I have to tell 
you, it is not an issue on which I'm able to give you clarity 
about the history of sanctuary cities. At this point I'm happy 
to look into the issue and provide you with whatever 
information we can.
    I know that it is an issue of intense debate, and of course 
the Department of Justice is able to provide not only the 
information, but to help in that debate. I'm not able to give 
you the history of how they came about or explain that to you. 
I do understand the challenges that you note, however.
    Mr. Bishop. Well, that is exactly why Americans are 
frustrated, because that's the answer that they're getting. 
Selective enforcement of the law is not justice. It is in fact 
lawlessness. And we live in a country that we require our 
citizens to obey the law, yet our own law enforcement is being 
directed not to follow the law.
    So you have to wonder at what point in time do the citizens 
of this country begin to say, ``Why in the world am I following 
the law if my own government doesn't apply it in a fair way?'' 
I do believe that we are fast approaching a point in time in 
this country where people will just ignore the law. We wonder 
why the crime continues to proliferate. You have your violence 
reduction summit that you had. I would think this would be a 
really good conversation piece to have, why is it that we allow 
cities to ignore the law and why law enforcement refuses to 
talk to each other and why we allow some of these glaring 
examples of violence to occur in our inner cities, we complain 
about it, I have heard it here today, yet we're not doing what 
we could do to ensure that it doesn't happen in the future.
    It causes me great anxiety to sit here and not hear 
someone, a public official, say we will not stand for 
lawlessness, we will not allow cities to circumvent or ignore 
the law. We are going to use the power and weight of our office 
to ensure that justice is done.
    And I say that with conviction because I believe it's 
common sense. It has nothing to do with politics. It's common 
sense. And I'll let you respond to that if you have any 
response to it.
    Attorney General Lynch. Well, thank you, Congressman. I do 
understand the frustration that you outline. And certainly with 
respect to the statutory regime that you inquired about, as I 
indicated, I'm not able to give you that historical information 
now. But I look forward to providing you what information we 
can.
    Mr. Bishop. I yield back.
    Mr. Collins. The gentleman yields back.
    The gentleman, Mr. Cicilline, is recognized.
    Mr. Cicilline. Thank you, Mr. Chairman.
    And thank you, Madam Attorney General, for being here, 
particularly at a moment when I know you and the entire Justice 
Department is offering full assistance to your counterparts in 
France to respond to this horrific terrorist attack.
    I want to focus my questions really on gun violence in our 
country. And specifically, as you know, under Federal law, a 
gun seller may transfer a firearm to a purchaser after 72 
business hours even if the criminal background check has not 
been completed. And because of that--it's called default 
proceed policy within the Department--and because of that, gun 
dealers went forward with almost 16,000 sales to people who 
turned out to be prohibited purchasers between 2010 and 2014.
    So my first question is, do you think that the default 
proceed policy should be changed to a policy that says firearm 
sales may only occur if the background check has been completed 
and the transfer approved?
    Attorney General Lynch. Certainly you raise an important 
issue about gun safety and our background system. We have been 
looking specifically at this issue given the unfortunate tragic 
circumstances that allowed Dylann Roof to purchase a firearm. 
And what I will say, though, is that while it certainly does 
make it challenging and make it difficult to ensure that we 
keep firearms out of those who are prohibited, that is the 
current state of the law.
    Mr. Cicilline. No, no, I understand that. But you agree, do 
you not, Madam Attorney General, that if the law in fact said 
the background check has to be completed and the transfer 
approved we would reduce the likelihood that people who are 
ineligible, 16,000 in that 4-year period, from purchasing 
firearms, correct?
    Attorney General Lynch. Certainly it would provide law 
enforcement with another tool to make sure that firearms are 
out of the hands of prohibited persons. And should Congress 
consider something, we'd be happy to provide input and comment 
on that.
    Mr. Cicilline. So when that information is determined--when 
it's determined that a person is a prohibited purchaser, the 
agency sends out a retrieval notice to the Bureau of Alcohol, 
Tobacco and Firearms, correct?
    Attorney General Lynch. Yes. If a prohibited person does 
obtain a weapon, there is a retrieval notice.
    Mr. Cicilline. Okay. And so do you know what happens to 
those cases in which ATF is directed to retrieve a firearm? Do 
you track that?
    Attorney General Lynch. With respect to retrieval notices, 
ATF will designate an agent to investigate the location and 
whereabouts of the individual and the firearm and retrieve that 
firearm from that person.
    Mr. Cicilline. So under current law and practice no notice 
is provided to local law enforcement or to the U.S. Attorney's 
Office in that jurisdiction. Is that correct?
    Attorney General Lynch. It is done through ATF. That is 
correct.
    Mr. Cicilline. So that we have information that in at least 
some of these cases someone who is ineligible because they're a 
convicted felon has purchased a firearm but we don't provide 
notice to local law enforcement or to the U.S. Attorney's 
Office, only to ATF.
    Attorney General Lynch. That's the current system, yes, 
sir.
    Mr. Cicilline. Okay. You would agree that providing that 
information to local law enforcement or to the U.S. Attorney's 
Office would allow them to prosecute some number of individuals 
who criminally and in violation of Federal law bought a gun 
with a criminal record.
    Attorney General Lynch. Congressman, I agree that certainly 
the sharing of all relevant information helps all law 
enforcement. Every case would have to be looked at differently 
and with respect to the individual facts of each case.
    Mr. Cicilline. In addition, I want to just focus your 
attention for a moment, Madam Attorney General, on the NICS 
system. Director Comey testified before our Committee that 
receiving timely records from State and local law enforcement 
was a potential area for improvement. Are there legislative 
efforts we can undertake to increase compliance by State and 
local governments? Is it your sense that it's a lack of Federal 
standards, general administrative difficulties, or is it just 
noncompliance? And what can we do as Members of Congress to try 
to encourage or require compliance with the NICS system because 
it's only as good as the information that's contained within 
it?
    Attorney General Lynch. Thank you, Congressman. Yes, the 
NICS system is an important part of our background check system 
and we do rely very heavily on information from our State and 
local counterparts. In many instances, we have excellent 
reporting from those counterparts. In some instances it is not 
as robust as we need. And anything that could be done to 
improve that would be useful.
    Certainly you could consider legislation. We also have been 
working directly, speaking directly with those localities to 
encourage them to improve their reporting to the current 
system.
    Mr. Cicilline. And one final question, Madam Attorney 
General. Congressman Deutch made reference to this, this 
challenging issue of the definition of engaged in the business 
of dealing firearms. Even the ATF has said that this very vague 
standard frustrates prosecutions, it allows people who 
regularly sell guns to avoid the requirements of background 
checks. And some have suggested that you could issue a 
regulation that would provide greater clarity and define that. 
We recognize legislation is also possible.
    But will you agree to at least look at whether or not you 
have the ability to issue clarifying legislation that will 
attempt to reach these individuals who are regularly engaged in 
the sale of firearms but are not determined to be engaged in 
the business of dealing firearms and thereby go free from any 
of the constraints that exist for firearm sales and present 
significant dangers as a result?
    Mr. Collins. The gentleman's time has expired. The Attorney 
General can answer.
    Attorney General Lynch. Thank you, sir.
    Congressman, with respect to the important issue of our 
firearm statutes, obviously significant changes would have to 
be considered and implemented by Congress. And should they be 
considered, we'd be happy to provide input and guidance there.
    In the current statutory scheme we always do everything 
that we can to ensure robust enforcement under the current 
statutes. It involves, for example, outreach on the part of ATF 
to gun dealers to provide guidance to them as to their 
activities, that goes on on a regular basis, so that we can in 
fact increase and encourage compliance on the part of dealers.
    Mr. Cicilline. Mr. Chairman, I'd ask unanimous consent that 
this first report, ``The FBI Data Shows Thousands of Gun Sales 
Beat Checks,'' be introduced as part of the record.
    Mr. Collins. Without objection, so ordered.
    Mr. Cicilline. I'd ask unanimous consent that this article 
entitled ``Walmart Has Tougher Policies for Background Checks 
Than the U.S. Government Does,'' be introduced into the record.
    Mr. Collins. Without objection.
    Mr. Cicilline. And finally a report entitled ``Business as 
Usual,'' prepared by Everytown for Gun Safety, ``How Unlicensed 
High Volume Gun Sellers Fuel the Criminal Market.''
    Mr. Collins. Without objection.**
---------------------------------------------------------------------------
    **Note: The material submitted by Mr. Cicilline is not printed in 
this hearing record but is on file with the Committee and can be 
accessed at:

      http://docs.house.gov/Committee/Calendar/
      ByEvent.aspx?EventID=104114.
    Mr. Collins. The Chair now recognizes the gentleman from 
Idaho, Mr. Labrador.
    Mr. Labrador. Thank you, Mr. Chairman.
    Thank you, Attorney General Lynch, for being here. I know 
it's been a long day.
    As you, I'm deeply troubled by recent events taking place 
on the global stage. I know that you have shared your concern 
about what happened in Paris, attacks in Beirut, and the 
current crisis in Syria. These events, both singular and 
ongoing, have reinforced and further impressed on us the very 
harsh realities of our world, and now we are confronted with a 
duty to respond here in Congress. I hope that the 
Administration will take the necessary steps to ensure our 
Nation's security to the greatest extent possible in these 
uncertain times.
    As you know, Director Comey was here just a couple of weeks 
ago, and we asked him some questions, and he testified before 
this Committee that the FBI cannot offer absolute assurance 
that there is no risk associated with the current Syrian 
refugee crisis. In fact, when I asked him specifically about 
the security gaps in Syria, he said, ``The challenge we face 
with Syria is that we don't have that rich a set of data. So 
even though we've gotten better at querying what we have, we 
certainly will have less overall.''
    So, in other words, he's saying we have the ability to 
query the information that we have, but we don't have a good 
set of data, we don't have a good set of intelligence. Do you 
agree with that assessment?
    Attorney General Lynch. Certainly with respect to the 
information coming into our databases from Syria, as the 
Director has noted, it does present challenges to law 
enforcement. However, that does not mean we will stop trying to 
obtain data and utilize that screening system and I certainly 
want to convey our commitment to doing that. But certainly, as 
the Director has indicated, there are challenges to a system 
based upon the amount and type of data that one can obtain.
    Mr. Labrador. So when you hear the media out there, they've 
spent the last 2 days saying that we are vetting these Syrian 
rebels, but the reality is that we don't have sufficient 
information to know.
    Obviously your Administration is doing everything possible 
to gather the information that we have, but the problem is that 
we don't know what we don't have, especially because the 
intelligence on these people is not as fast as it was in Iraq, 
for example. Isn't that correct?
    Attorney General Lynch. Well, certainly every country 
presents a different scenario in terms of the information that 
we can gather from them. And certainly while Syria does present 
its challenges, I'm not able to unequivocally say that we 
obtain no data from them. I don't believe that we have that 
information at this point.
    Mr. Labrador. I don't think that's what I said. And I don't 
think that's what I said. I just said that we have some 
problems. In fact, he said, ``I would say that we have a less 
robust data set dramatically than we had with Iraq. So it is 
difficult.'' Would you agree with that assessment?
    Attorney General Lynch. It certainly does present 
challenges, yes, Congressman.
    Mr. Labrador. So he said dramatically. He didn't say just 
there's a small difference between the two countries, but 
between Iraq and Syria there's a dramatic difference in the 
type of intelligence that we have.
    Then when I asked the FBI Director--I asked him what the 
FBI can do to improve security checks. This is one of the 
things that scared me the most. He said, ``That's one I don't 
have a good answer for.''
    So do you have a good answer for what we could do right now 
to improve dramatically the intelligence that we have on these 
Syrian refugees?
    Attorney General Lynch. Well, Congressman, what I can tell 
you is that both the FBI Director and I will do everything in 
our power to continue to protect the American people.
    Mr. Labrador. Well, I know you will do everything in your 
power, and I appreciate your answer. But what specifically are 
you going to do so I can go back to the people of Idaho and let 
them know that the Syrian refugees that may be coming to the 
State of Idaho have been properly vetted--not just vetted, but 
properly vetted--so we know exactly what their backgrounds are?
    Attorney General Lynch. Well, certainly, Congressman, we 
can provide you information on the type of vetting that is 
done. As I've mentioned before, the FBI----
    Mr. Labrador. But we know already that the vetting that is 
done is not sufficient. I mean, Director Comey already said 
that. So that your answer is insufficient at this time. How can 
I give assurances to the people of my district that we will 
have the intelligence that is necessary to know whether they 
are going to be harmful or not to our communities, to our 
Nation, and to the families in my district?
    Attorney General Lynch. Well, Congressman, as I indicated, 
we can in fact provide you information on the nature of the 
vetting. We can in fact provide information, as I indicated, 
that is done by the FBI. But also in conjunction with the 
Department of Defense, State, Homeland Security, we also rely 
on more than the databases. Every refugee from whatever country 
who chooses to come here or to try and come here is also 
subject to a robust interview process as well as a biometric 
analysis of the individual who is literally in front of that 
interviewer, something that unfortunately Europe does not have 
the ability to do at this time, placing them in a dramatically 
different situation than us. And certainly we're happy to keep 
you updated on developments there.
    Mr. Labrador. So you think the biometric information that's 
provided for Syrians, which the FBI Director said was not 
sufficient, you think that it is sufficient?
    Attorney General Lynch. Congressman, I can indicate to you 
the types of measures that are in place and provide you the 
information on the type of screening that is done so that 
information can be conveyed to the people of your district.
    Mr. Collins. The gentleman's time has expired.
    The Chair now recognizes Mr. Trott.
    Mr. Trott. Thank you, Mr. Chairman.
    Thank you, Madam General, for testifying today.
    And I want to talk a little bit about the mortgage 
settlements. And, you know, in 2013 activist groups met with 
then Deputy Attorney General Tony West and urged him to, in my 
opinion, create a slush fund to fund their activities in 
connection with the JPMorgan Chase settlement. Then in 2014 the 
same groups came back to the Deputy Attorney General and in 
connection with the Citi and Wells Fargo settlements really 
pushed and accomplished mandatory donations to activist groups, 
specifically IAF, with enhanced credits for donations to those 
groups. And I wondered if you could comment on whether you 
think that those discussions occurred, number one, and if they 
did, why?
    Attorney General Lynch. Congressman, with respect to those 
settlements involving residential mortgage-backed securities 
frauds, they are an important part of the Department's work to 
not only protect the American people, but provide relief from 
the financial crisis and the housing crisis that has occurred 
from 2008 on.
    In connection with your specific question, I'm not aware of 
the meetings that you were talking about. I was not involved in 
them. But what I can tell you as a former U.S. attorney who was 
involved in the settlements of two of those matters, 
negotiations were between the banks and the governments, and 
that is certainly how those matters were handled and how they 
were resolved.
    With respect to the consumer relief portions of those 
settlements, the money there comes from the banks, and it is 
specifically designed in the wake of the widespread and 
detailed admissions of wrongdoing on the part of the banks that 
led to thousands, if not hundreds of thousands of homeowners 
losing not only their homes, but the value of their homes and 
their savings.
    We also instituted consumer relief to provide direct relief 
to people that went above and beyond the statutory penalties of 
the FIRREA statute under which these cases were brought. Where 
banks are able to provide, for example, one of the main forms 
of relief is principal reduction.
    Mr. Trott. Right.
    Attorney General Lynch. Where there are other entities 
involved, the banks would make a selection and they would have 
to be of an entity from a pre-approved HUD list that focuses 
specifically on relief, for example foreclosure relief, to 
homeowners.
    Mr. Trott. No, I understand how the settlements and the 
money in connection with the settlements was supposed to be 
used. What I'm concerned about is IAF, which is specifically an 
activist group which focuses on community organizing, got tens 
of millions of dollars with the intent, I believe, of training 
high school students about the importance of debt management 
and financial management. And I can't for the life of me 
understand why that, if you're really looking at trying to 
curtail future mortgage defaults, why that money wasn't given 
to the Mortgage Bankers of America or the different State bar 
associations that were doing very good work in terms of loan 
modifications, and instead it went to some group that had a 
different agenda, in my opinion, unrelated to mortgage default 
activity.
    And then I guess the larger question is, how are we doing 
on the discovery with respect to what really happened in 
connection with these settlements?
    Attorney General Lynch. Can you be more specific about 
that?
    Mr. Trott. Eleven months ago this Committee asked for the 
e-mails relating to discussions between DOJ and outside groups 
as it relates to mandatory donations to these activist groups. 
That was 11 months ago. And you're a former and very 
accomplished prosecutor. I mean, how would you feel if a 
corporation took 11 months to send you 10 e-mails? What would 
you do?
    Attorney General Lynch. It would depend on the context of 
the request, the discovery, and any negotiations. I'm not able 
to comment on that.
    Mr. Trott. Is 11 months a good turn time for discovery?
    Attorney General Lynch. It depends totally on the facts of 
the specific circumstances.
    Mr. Trott. Let's move in my last minute here to sanctuary 
cities for just a moment. So earlier today Chairman Smith asked 
you about the Immigration Reform Act of 1996 which bars State 
and local governments from prohibiting their officials from 
communicating information regarding immigration status to DHS. 
And your response to Chairman Smith's question was that we're 
talking with the different jurisdictions about their compliance 
with this act. So what are you talking with them about?
    Attorney General Lynch. Congressman, I don't believe that 
that was my specific response. I would have to go back and look 
at that response.
    What I can tell you is that I believe my response was that 
I was not familiar enough with the specific statutory terms 
that we were discussing to provide a specific answer to this 
question and would be happy to look into that and provide 
information.
    Mr. Trott. Sure. So let me focus--the section that Chairman 
Smith was referring to, he didn't reference it, but section 
642(a), which specifically gives you the ability to enjoin 
jurisdictions from deciding not to comply with this act. Have 
you sought, other than talking with the jurisdictions, have you 
sought any enforcement actions or any injunctive relief to try 
and make sure the different cities that have decided to go 
rogue are following Federal law?
    Mr. Collins. The gentleman's time has expired. The Attorney 
General can answer the question.
    Attorney General Lynch. Thank you, Mr. Chairman.
    I'm not aware of those actions, but certainly I'm happy to 
look into that and provide a response to you.
    Mr. Trott. Thank you for your time today.
    Attorney General Lynch. Thank you, sir.
    Mr. Collins. At this time the Chair recognizes the 
gentleman from Iowa, Mr. King.
    Mr. King. Thank you, Mr. Chairman.
    And I want to thank you, Attorney General, for a long day 
today, and I hope you got a break for lunch. I did.
    A number of things come to mind. I'd like to pick up on the 
sanctuary city side of this. And that is this statute that 
prohibits the local jurisdictions, the law enforcement 
jurisdictions from having a policy that prohibits their law 
enforcement officers from engaging with, supporting with, or 
helping immigration enforcement officials from the Federal 
Government. And I'm of the understanding that some of these 
communities prohibit their law enforcement officers from 
gathering information and in that way they circumvent the text 
of 642(a), as the gentleman referenced.
    And so I think it's important that you know that section 
and enforce that section. I've not yet seen an attorney general 
that does enforce that section of the law. And if you read that 
and it reads to you as literally as I have described it to you, 
would you be prepared then to withhold law enforcement grants 
from those local jurisdictions?
    Attorney General Lynch. Well, thank you for the question, 
Congressman, and for the specific factual predicate to it. 
Again, it's not a statute that I'm familiar with now to give 
you a specific response to, but I am happy to look into that 
and provide you with information on that.
    Mr. King. I would urge you to do that. And I'm asking you 
in this record to please send that to me at my office as well 
as to the Committee. I would like to know directly what your 
response is on that. It's very frustrating to be engaged in 
passing legislation here in this Congress and then seeing that 
it's ignored. That's the sanctuary city part of this.
    I wanted to go back, though, to the background check piece 
of this. And I understand the distinctions between Iraq and 
Syria and the more difficulty in Syria. But do we have 
biometrics on the Syrian refugees or the migrants? Do we have 
fingerprints? Do we have digital photographs of those? And is 
that part of the background check?
    Attorney General Lynch. It depends on the individual 
circumstance. I mean, a number of people do come in and do have 
that information and a number of people do not. If they come 
in, as I indicated before, as part of the process, that 
information would be gathered and also stored in a database.
    Mr. King. But you can't do a background on information that 
you've just gathered as far as fingerprints or digital 
photographs are concerned. And so it would have to be part of 
their record prior to that, say, coming out of Iraq or Syria.
    I just came back from there last week. And not only that, 
but I but traveled over much of Europe and I tracked with the 
migrants, and I saw tens of thousands of them. And I met with 
the State Department in a number of countries. And they tell me 
that they're giving our expertise to local countries in the 
European Union because, as you've said, we're ahead of them. So 
I said, well, as some of that, are they fingerprinting? Are 
they taking digital photographs? And their answer was, well, 
no, they aren't. Do we give them that advice? Well, no, we 
aren't.
    And so I'm very troubled about the level of confidence you 
seem to exude here, or the President exudes, on an ability to 
do background checks when I see a huge haystack of humanity, 
and in that haystack are the needles that are terrorists. And 
also in that haystack are the pieces of hay that will become 
the needles of terrorists.
    And so do you actually believe that the Administration, all 
together, can assure America with any degree of confidence that 
they can identify someone who will be radicalized because of 
their association, especially with their religion and their 
family members, that they will be transferred into here in this 
country?
    Attorney General Lynch. Well, Congressman, as I indicated, 
we do have a robust screening mechanism. As I also indicated--
--
    Mr. King. But how is it robust?
    Attorney General Lynch [continuing]. It's a challenging 
circumstance in order to ensure that we have the information 
that we need to make the determinations on who can come into 
the country and who cannot come into the country.
    Mr. King. Let me suggest that it doesn't sound at all 
robust to me, not if it's not robust enough that we have 
already have identified them in their home country. If they 
don't have a legal existence in their home country, then how in 
the world can we possibly do a background check on people that 
from a legal perspective didn't exist before they showed up 
here at the borders of the United States? We are faced with 
that constantly.
    How about this? Are you under any kind of directive by the 
Administration not to say Islamic jihad or radical Islam? Is 
that a memo that has come out?
    Attorney General Lynch. I've seen no memo on vocabulary, 
Congressman.
    Mr. King. Can you say that or describe then the enemies we 
have that are killing Western civilization in that fashion? Are 
they Islamic jihad? Are they Islamic radicals?
    Attorney General Lynch. I call them murderers, sir.
    Mr. King. But you can't say Islam in conjunction with that?
    Attorney General Lynch. I'm sorry?
    Mr. King. How do we understand them if you can't say that? 
I mean, I want to read to you then--you can't say it, Can you? 
You can't say it anymore than Hillary Clinton can say the word 
``Islamic jihad, radical Islamic jihad.'' If we can't 
understand our enemy, if we don't know who they are, if we 
don't know what motivates them--do you know what the term 
``hijrah'' means?
    Attorney General Lynch. I'm sorry, I can't hear you, sir.
    Mr. King. Hijrah, h-i-j-r-a-h, an Islamic term for peaceful 
migration to invade other countries and start your civilization 
there and don't assimilate into the broader culture of 
civilization. And that's being preached in mosques around the 
Middle East and they're rising up and moving into Europe and 
moving into the United States and they're resisting the idea 
that they could ever assimilate into the American culture or 
civilization. And we're sitting here acting like we can vet 
them without even understanding what the word hijrah is and not 
being able to say radical Islam, radical Islamic jihad, and 
having a President out of your party that can't say it either. 
And I'm flabbergasted, I'm listening--here will be my last 
question, honest, and that is----
    Mr. Collins. The Gentleman's time has expired.
    Mr. King. I'd ask unanimous consent to ask the last 
question, Mr. Chairman.
    Mr. Collins. Finish your question.
    Mr. King. Did you ever think, this is actually a little bit 
of levity, did you----
    Attorney General Lynch. I'm sorry?
    Mr. King. A little bit of levity, actually. Did you ever 
think that you would be sitting here testifying before the 
House Judiciary Committee hearing so many people of the other 
party advocate for legalizing marijuana? It's purely 
rhetorical, and I yield back the balance of my time.
    Mr. Collins. The gentleman yields back.
    At this time the Chair recognizes the gentleman Texas, Mr. 
Ratcliffe.
    Mr. Ratcliffe. Thank you, Mr. Chairman.
    Madam Attorney General, in my district there is quite a 
large number of law-abiding gun owners who also happen to be 
hunters. I can't tell you how many times I've heard complaints 
from those hunters about the availability of ammunition, 
especially at the start of deer season. As you may know, 
hunters are being forced to use alternative nonlead ammunition 
because manufacturers can't make brass or steel core ammunition 
for.30-06 a .270 deer hunting rifle unless they get a waiver 
saying it's primarily intended for sporting purposes and that 
waiver has to come from the Attorney General.
    Now, in the last 4 years there have been at least 32 
petitions that have been submitted by manufacturers seeking 
that designation. Not a single one of those petitions has been 
granted. But what really begs an explanation, I think, is that 
in the last 4 years not a single response has been sent to any 
manufacturer with regard to those petitions.
    So my question to you is a two-part question. Why haven't 
those been responded to, and when can a response be expected?
    Attorney General Lynch. Thank you for the question, 
Congressman.
    I'm not aware of the requests that you have noted. But I 
thank you for raising them and I would like the opportunity to 
look into that matter and provide you some information.
    Mr. Ratcliffe. Well, so can you tell me in the last 4 years 
have you discussed the existence of those petitions with anyone 
at the Department of Justice?
    Attorney General Lynch. Well, Congressman, certainly for 
the last 4 years in my prior position as U.S. attorney for 
Brooklyn, that matter would not have been within my purview. 
And as I indicated, while I'm not aware of the situation now, 
I'd appreciate the opportunity to speak to with your staff and 
provide you with some information.
    Mr. Ratcliffe. Okay. Well, are you aware, though, that 
there is a statute, 18 U.S.C. 921, which says that it is--it 
says, ``Which the Attorney General finds is primarily intended 
to be used for sporting purposes.'' So do you understand that 
it is your responsibility to make that designation?
    Attorney General Lynch. Yes, it is certainly included in 
the panoply of responsibilities for the Office of the Attorney 
General.
    Mr. Ratcliffe. Okay. So do you have any explanation for why 
there hasn't been any response at all in the last 4 years to 
folks making petitions to the United States Department of 
Justice?
    Attorney General Lynch. Happy to look into that and provide 
information to you on that.
    Mr. Ratcliffe. Okay. Well, let me then turn to another 
troubling issue. As the Nation's top law enforcement official, 
I want to get your reaction to a growing antipolice sentiment 
and actions of certain public groups out there in this country. 
I'm hoping that you'll agree with me--I am also a former United 
States attorney, I took the same oath that you did--I'm hoping 
that you'll agree with me that police officers and law 
enforcement are an important part of the backbone of our 
criminal justice system. And in fact I would hope that you'd 
agree with me that the work that they do is vital to your 
ability as the Attorney General and to the thousands of lawyers 
that work for at the Department of Justice to be able to 
prosecute violations of law. We can agree on that.
    Attorney General Lynch. I would call them essential, 
Congressman.
    Mr. Ratcliffe. Right. Well, with that in mind, what is the 
status of your investigation into Karla Dobinski?
    Attorney General Lynch. Can you give me some context for 
the question?
    Mr. Ratcliffe. Sure. Let me refresh your recollection. 
Karla Dobinski was the DOJ taint lawyer for the New Orleans 
police officers that were charged in connection with shooting 
of civilians in the aftermath of Hurricane Katrina. And as you 
know, Madam Attorney General, the role of the taint officer is 
to make sure that the constitutional rights of police officers 
are protected from the disclosure of privileged information.
    Now, it was subsequently established in Federal court that 
rather than protecting those police officers, Ms. Dobinski, who 
was a DOJ deputy chief, actually rather than protecting their 
constitutional rights went online to anonymously leak evidence 
from the case and to mock the actual defendant police officers 
that she was supposed to be protecting. Now, the Federal judge 
in that case called it reckless, he called it wanton, and a new 
term that I'd not heard, he called it grotesque misconduct and 
found that she had personally fanned the flames of those 
burning to see the defendants convicted.
    So the reason I raise this is 10 months ago at your 
confirmation hearing before the Senate Judiciary Committee you 
deferred answering questions from Chairman Grassley until you 
could fully investigate the matter of Ms. Dobinski. But you 
responded to his questions in writing by stating, ``If 
confirmed, I will commit to ensuring that the Department holds 
accountable any employees who are found to have committed 
misconduct.'' And so please, please tell me that you have in 
fact done as you promised and you've held Ms. Dobinski 
accountable for that outrageous conduct.
    Attorney General Lynch. So, Congressman, my understanding 
of the matter, to the extent that I'm aware of the specifics of 
it, is that the matter was referred and reviewed by our Office 
of Professional Responsibility and that the Department followed 
the applicable civil service laws in conjunction with that. But 
I don't have further specifics on that for you.
    Mr. Ratcliffe. So can you tell me whether or not Ms. 
Dobinski, who engaged in the conduct of trying to help convict 
the defendants she was sworn to protect, can you tell me 
whether or not she's still employed at the Department of 
Justice?
    Mr. Collins. The gentleman's time has expired. The Attorney 
General can answer.
    Attorney General Lynch. Thank you, sir.
    I belive that she is.
    Mr. Ratcliffe. Well, it would seem to me, beg the 
Chairman's indulgence here, with the appalling targeting of the 
police that's going on in this country right now, I hope that 
that's not the message that you want to send to the brave men 
and women that wear the uniform to protect us. If police 
officers and other law enforcement officials can't count on the 
top Federal law enforcement official to back them up, who can 
they count on?
    Thank you for being here.
    I yield back.
    Mr. Collins. The gentleman's time has expired.
    Seeing no other Members, this concludes today's hearing.
    Thanks to the Attorney General for your patience and your 
time today.
    Without objection, all Members will have 5 legislative days 
to submit additional written questions for the witness and 
additional materials for the record.
    With that, this hearing is adjourned.
    [Whereupon, at 3:10 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Material submitted by the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
                       Committee on the Judiciary
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
                               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               __________
                               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Questions for the Record submitted to the Honorable Loretta E. Lynch, 
        Attorney General, United States Department of Justice***
---------------------------------------------------------------------------
    ***Note: The Committee did not receive a response to these 
questions at the time this hearing record was finalized and submitted 
for printing on March 21, 2016.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
